81

No.

$

nSt^i|\!AL
Supreme Court, U.S.
FILED

JAN 2 8 2021
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Michael Wright,
Petitioner
v.

Mario Cardenas, Ian Downing,
Felix Echevarria, Brandon Layne,
Michael B. Strickland, Bradley A.
Wheeler and CITY OF KISSIMMEE
Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE
UNITED STATES 11™ CIRCUIT COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI

Michael J. Wright-pro se
Petitioner/Counsel of Record
13419 Summerton Dr.
Orlando, FI. 32824
(347)931-4928
wrimichaell958@gmail.com

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT
Michael Wright vs. Mario Cardenas, et al.

Supreme Court No..

Petitioner does not have a parent corporation and is not a publicly held corporation.
Interested parties are-Ashton, Jeffrey Lee, Esq.
■Ayala,, Aramis D., Esq.
-Baird, Benjamin David, Esq.
-Bondi, Pamela Jo, Esq.
-Bookbinder, Kevin, Esq.
-Cardenas, Mario
-City of Kissimmee
-Craner, A. James, Esq.
-Downing, Ian M.
-Draper, Carol E., Esq.
-Echevarria, Felix
-Epperson, Hal C., Jr., Esq.
-Florida Bar
-Florida Fifth District Court of Appeal
Florida Supreme Court
-Forsythe, Ian, Esq.
-Fundora, Liusbel
-Irick, Daniel C., Esq.
CIPl

Michael Wright vs. Mario Cardenas, et al.

Supreme Court No.

-Kelly, Gregory J., Esq.
-Kissimmee Police Department
-Layne, Brandon T.
-Luker, Jacqueline Rae, Esq.
-McClain, David H., Esq.
-Rebecca McGuigan, Esq. Florida Bar No.: 568759
-Mendez, Krissia Eunice, Esq.
-Mendoza, Carlos E., Esq.
-Ninth Judicial Circuit of Florida, Office of the Court Administrator
-Ninth Judicial Circuit of Florida, Office of the Public Defender
-Ninth Judicial Circuit of Florida, Office of the State Attorney
-Office of the Attorney General, State of Florida
-Purdy, James S., Esq.
-Sharp, G. Kendall, Esq.
-Smallwood, Don, Esq.
-Strickland, Michael
-Tynan, Greg A., Esq.
-United States Court of Appeals for the Eleventh Circuit
-United States Supreme Court
-Wheeler, Bradley A.
-Wright, Michael Joseph- Plaintiff, pro se

CIP2

Questions Presented for Review
The United States Court of Appeals for the 11th Circuit has entered a decision
in conflict with relevant decisions of the United States Supreme Court. Has the 11th
Circuit so far departed from the accepted and usual course of judicial proceedings,
as to call for an exercise of this Court’s supervisory power?

The subject matter and issue is Fed. R. Civ. P. Rule 12 Defenses and Objections
When and How Presented, Does the word “MUST’ as used in Fed. R. Civ. P. Rule
12(b)Wow to Present Defenses. Every defense to a claim for relief in any pleading
must be asserted in the responsive pleading if one is required. But a party may
assert the following defenses by motion: (l) lack of subject-matter jurisdiction; (2)
lack of personal jurisdiction; (3) improper venue! (4) insufficient process! (5)
insufficient service of process; (6) failure to state a claim unon which relief can be
granted! and (7) failure to join a party under Rule 19. A motion asserting any of
these defenses must be made before pleading if a responsive pleading is allowed.”;
Rule 8(b) (l) “(l) In General. In responding to a pleading, a party must; (A) state in
short and plain terms its defenses to each claim asserted against it; and (B) admit
or deny the allegations asserted against it by an opposing party.”! and
Federal Rules of Evidence Rule 201(c) (2) “(c) Taking Notice. The court: (2) must
take judicial notice if a party requests it and the court is supplied with the
necessary information.; denote, signify and intend that there is no discretion on the
part of the (trial) court? AND Must a defense of “failure to state a claim upon which
relief can be granted” be made before pleading?

Pursuant to Fed. R. Civ. P. “Rule 1. Scope and Purpose-These rides govern the
procedure in all civil actions and proceedings in the United States district courts,
except as stated in Rule 81. They should be construed, administered, and employed
i

by the court and the parties to secure the just, speedy, and inexpensive
determination of every action and proceeding. Notes of Advisory Committee on
Rules—1937 3. These rules are drawn under the authority of the act of June 19,
1934, U.S.C., Title 28, §723b [see 2072] (Rules in actions at law; Supreme Court
authorized to make), and §723c [see 2072] (Union of equity and action at law rules;
power of Supreme Court) and also other grants of rulemaking power to the Court.”
By what authority does the District Court and the Appellate Court disregard and
knowingly violate the Rules?

In consideration of the United States Constitution bill of rights Amendment 7
“In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial bv jury shall be preserved, and no fact tried by a jury, shall
be otherwise re-examined in any Court of the United States, than according to the
rules of the common law.”; Wright has accused the six police officer defendants of
committing crimes in an effort to cover up the cause of Wrights disfigured face and
broken nose; all six of the defendants have employed'the 5th Amendment Right to
remain silent. Pursuant to the Federal Rules of Civil Procedure Rule 8 (b)
subsection “(6) Effect ofFailing to Deny. An allegation—other than one relating to the
amount of damages—is admitted if a responsive pleading is required and the allegation is
not denied. If a responsive pleading is not required, an allegation is considered denied or
avoided.” The defendants have unlawfully filed a motion for summary judgment under Fed.
R. Civ. P. Rule 56. Is Wright entitled to the application / invocation Rule 56 (g)?

Supreme Court precedent Smith v. Wade 461 U.S. 30(l983):
ii

“Punitive

damages are available in a proper case under 1983.” Furthermore, on pg.42 “The
Court further explained the standard for punitive damages in Milwaukee & St. Paul
R. Co. v. Arms, 91 U.S. 489 (1876), a diversity railroad collision case; "Redress
commensurate to such [personal] injuries should be afforded. In ascertaining its
extent, the jury may consider all the facts which relate to the wrongful act of the
defendant, and its consequences to the plaintiff; but they are not at liberty to go
farther, unless it was done willfully, or was the result of that reckless indifference
to the rights of others which is equivalent to an intentional violation of them. In
that case, the jury are authorized, for the sake of public example, to give such
additional damages as the circumstances require. The tort is aggravated by the evil
motive, and on this rests the rule of exemplary damages." Id., at 493.” Are the evil
motives of district court judge Mendoza and the defendants additional FACTS
which the jury may consider in determining the reckless indifference to the rights
of Wright ?

In Supreme Court decision Graham v. Connor 490 U.S. 386, (1989) an
excessive force seizure case, The Court held: an “objective REASONABLENESS
analysis standard” under the Fourth Amendment prohibition of unreasonable
seizure of person[s] was to be employed; Is the same objective reasonableness
analysis standard appropriate in assessing the crimes of law enforcement persons
who do not dispute filing fraudulent probable cause documents, tampering with and
fabricating evidence in violation of state law? AND Does the deprivation of liberty
and property without due process violate the 14th Amendment due process and/ or
equal protection clausets]?

In consideration of McQuiggin v. Perkins 133S. Ct, 19243\iay 28, 2013). Held“Actual innocence, if proved, serves as a gateway through which a petitioner may
iii

pass whether the impediment is a procedural bar, as it was in Schlup v. Delo, 513
U.S. 298, 115 S.Ct. 851, 130 L.Ed.2d 808, and House v. Bell, 547 U.S. 518, 126 S.Ct.
2064, 165 L.Ed.2d 1, or expiration of the AEDPA statute of limitations, as in this
case. Pp. 7-14.” “In Bousley v. United States, 523 U.S.614, 622 (1998), we held, in
the context of §2255, that actual innocence may overcome a prisoner’s failure to
raise a constitutional objection on direct review.” P,9 (Slip Opinion) In consideration
of the undisputed facts in the record of this proceeding; Has Wright proven and
demonstrated his actual innocence to the standard of This Court?

Pursuant to Code of Conduct for United States Judges Canon 2 COMMENTARY
Canon 2 A, Do the violations of law, and multiple failures of United States District
Court Judge Carlos Mendoza to abide by the decisions of this Court, the Federal
Rules of Civil Procedure, The Federal Rules of Evidence, and his own court order,
constitute an unacceptable appearance of impropriety “when reasonable minds,
with knowledge of all the relevant circumstances disclosed by a reasonable inquiry,
would conclude that the judge’s honesty, integrity, impartiality, temperament, or
fitness to serve as a judge is impaired”- call for an exercise of this Court’s
supervisory power?

Pursuant to the equal protection clause of the 14th Amendment, and Village of
Willowbrook v. Olecb, 528 U.S. 562 (2000) have the privileges and immunities of
Petitioner Wright been abridged? And has Wright been denied equal protection of
the law[s]?
iv

Pursuant to Rules of Supreme Court Rule 20 and 28 U. S. C. § 1651 (a), and
the unique exceptional circumstances presented in this extraordinary petition, will
granting the writ he in aid of the Court’s appellate jurisdiction?

ALL PARTIES APPEAR IN THE CAPTION
OF THE CASE ON THE COVER PAGE.
RELATED CASES

DOCKET NUMBER&CASE CAPTION

COURT
United States Court of

19- 14757-AA

Michael Wright v.

6 J 7 - cv - 00436 - CEM - DCI

Middle District of Florida

Michael J. Wright v.

Orlando Division

Mario Cardenas et al.

United States District Court 6^14 - cv - 01653 - GKS — GJK

Supreme Court of

12/03/14

Secretary Dept, of Con*, and Attorney General State of Florida

SC 18-1147

Michael J. Wright v.

07/16/18

State of Florida

Florida

Supreme Court of

11/05/19

Michael Joseph Wright v.

Middle District of Florida
Orlando Division

11/10/20

Mario Cardenas et al.

Appeals for the 11th Circuit

United States District Court

DATE

Michael J. Wright v.

SC15-1701

State of Florida

Florida

v

10/05/15

Florida Fifth District

5D18-1500

Michael J. Wright v.
State of Florida

Court of Appeal

Florida Fifth District

5D15-3861

Michael J. Wright v.

04/12/16

State of Florida

Court of Appeal

Florida Fifth District

06/25/18

5D15-2053

Michael John Joseph Wright 06/25/15
Petitioner
v. State of Florida

Court of Appeal

Respondent

Florida Fifth District

5D15-1999

Michael John Joseph Wright 08/17/15
Appellant
v. State of Florida

Court of Appeal

Appellee

Circuit Court 9th Judicial

49*2014-CF-003651 State of Florida v.

05/08/15

Michael Joseph Wright

Circuit, Osceola County

Florida
County Court 9th Judicial

49- 2014- CT- 003885 State of Florida v
Michael Joseph Wright

Circuit, Osceola County
Florida

12/16/14

[ 12/16/14 is the date this case was nolle prosequi ]

County Court 9th Judicial

2014 TR 059134

State of Florida v
Michael Joseph Wright

Circuit, Osceola County
Florida- Traffic Division
vi

11/05/14

Appendice A materials includes documents from the United States Court of Appeals
for the 11th Circuit docket # 19-14757-AA and the United States District Court
docket # 6T7 - cv * 00436 - CEM - DCI. Appendice B materials are from United
States District Court docket # 6U4 * cv * 01653 - GIvS - GJK. Appendice C materials
are from County Court 9th Judicial Circuit, Osceola County, Florida, docket # 49*
2014- CT- 003885; County Court 9th Judicial Circuit, Osceola County, Florida,
Traffic Division, Docket # 2014 TR 059134, Citation # A0G2VEP; Circuit Court 9th
Judicial Circuit, Osceola County, Florida, Docket# 49*2014-CF-003651. AND
Florida Fifth District Court of Appeal docket numbers, # 5D15-1999, # 5D 15*2053, #
5D15*3861, # 5D18-1500; Supreme Court of Florida docket numbers # SC15*1701
and# SC18-1147.

APPENDICES B and C CONTAIN (documents) MATERIAL THE PETITIONER
BELIEVES ESSENTIAL TO UNDERSTAND THE PETITION. PETITIONER
PROVIDES A PRELIMINARY FACTUAL STATEMENT WITH APPENDICES, A
DESCRIPTION OF THE MATERIALITY OF THE NUMEROUS DOCUMENTS.

vii

TABLE OF CONTENTS
Page (s)
1-v

Questions Presented for Review
Statement of Interested Persons and Corporate Disclosure Statement

CIPl, CIP2
v

Parties to the Proceeding ................................................................................
List of proceedings in state and federal trial and appellate courts that are

v - vn

directly related to the case in this Court ......................................................

van * xxiv

Table of Contents ........................................................................................
Citations of authorities ..................................................................................

ix

- xxiv

Citations of opinions and orders ....................................................................

1

Basis for Jurisdiction ......................................................................................

1

Date the judgment or order sought to be reviewed was entered ...............

2

Constitutional Provisions ...............................................................................

2,3

Concise statement of the facts: STATEMENT OF THE CASE

3-36

Direct and concise argument: REASONS FOR GRANTING THE PETITION

36-40

Conclusion .....................

. . 40

Certificate of Compliance

41

Certificate of Service......

41

Sworn Affirmation

41

Appendix pagination is represented in the bottom right side corner.
APPENDIX A

A1-A117

APPENDIX B

B1-B18

APPENDIX C

C1-C50
xiv, POS262

Proof of Service

viii

Page (s)

Citations of Authorities

UNITED STATES CONSTITUTION- Verbatim Recitation pgs.2, 3 Constitutional provisions
Article III, Sections 1,2

.......................

2, 38

Article VI, Clause 2

........................

2,38

Amendment 4

iii, 2, 3, 9, 20, 22, 29

.............

ii,4

Amendment 5
Amendment 6

......................

2,3,9,10,18,20,29,30

Amendment 7

....................................................

Amendment 8

.............................

Amendment 14 Section 1

iii, iv, 3, 6, 9, 10, 11, 18, 20, 22, 29, 38

ii, 2, 38

3, 9, 10, 20, 29, C48

CASES
.....................................................

6

Almendarez-Torres v. United States, 523 U.S. 224(1998) ...................

19, 39

Boxer X v. Harris, 437 F. 3d 1107(l 1th Cir. 2006)

31

Brady v. Maryland 373 U.S. 83(1963)

..................................

Butler v. SheriffofPalm Beach Cnty., 685 F. 3d 126l(l Uh Cir. 2012)

31

.................................................

iii, 35, 40

Heck v. Humphrey, 512 U.S. 477(1994) ....................................... ...........

39

McQuiggin v. Perkins 133 S. Ct. 1924(May 28, 2013) ...........................

m, iv

Graham v. Connor, 490 U.S. 386, (1989)

............ ............................... 18, 19, 30, C30

Pohte v. State, 973 So.2d 1107(Fla. 2007)

Saunders v. Duke, 766 F.3d 1262 (11 th Cir. 2014)
Smith v. Wade, 461 U.S. 30(1983)

................................

..........................................................

31, 32
iii, 14, 15, 39

..................................................

19

................................................

18, 19, C30

Strickland v. Washington, 466 U.S.668(1984) .........................................

19, 39

United States v. Resendiz-Ponce, 549 US 102(2007)

.........................

19, 39

Village of Willowbrook v. Olech, 528 U.S. 562 (2000)

..........................

iv, 39

State v. Dye, 346 So. 2d 538(Fla. 1977)
State v. Gray, 435 So. 2d 816 (Fla. 1983)

ix

STATUTES AND RULES
Florida Statutes and Rules

.........................................................................

Cl -C3

United States Code
28 U.S. Code § 453 - Oaths of justices and judges

40

....................................

Each justice or judge of the United States shall take the following oath or
do solemnly swear
affirmation before performing the duties of his office: ‘ I,
(or affirm) that I wall administer justice without respect to persons, and do equal
right to the poor and to the rich, and that I will faithfully and impartially discharge
under the Constitution and
and perform all the duties incumbent upon ine as
laws of the United States. So help me God.”
28 U.S.C. § 723(b)

i, ix, 40

28 U.S.C. § 723(c)

i. ix, 40
1

28 U.S.C. § 1254
Cases in the courts of appeals may be reviewed by the Supreme Court by the
following met.hods:
(l) By writ of certiorari granted upon the petition of any party to any civil or
criminal case, before or after rendition of judgment or decree;
28 U.S. C. § 1257(a) - State courts; certiorari (verbatim recitation)

1

28 U.S.C. § 1291

3

........................................................................................................

The courts of appeals (other than the United States Court of Appeals for the
Federal Circuit) shall have jurisdiction of appeals from all final decisions of the
district courts of the United States, the United States District Court for the District
of the Canal Zone, the District Court of Guam, and the District Court of the Virgin
Islands, except where a direct review may be had in the Supreme Court. The
jurisdiction of the United States Court of Appeals for the Federal Circuit shall be
limited to the jurisdiction described in sections 1292(c) and (d) and 1295 of this title.
28 U.S.C. § 1331

...........................................................................................................

The district courts shall have original jurisdiction of all civil actions arising under
the Constitution, laws, or treaties of the United States.
28 U.S.C. § 1343 Civil rights and elective franchise

3,40

(a)The district courts shall have original jurisdiction of any civil action authorized
by law to be commenced by any person:

3

(3) To redress the deprivation, under color of any State law, statute, ordinance,
regulation, custom or usage, of any right, privilege or immunity secured by the
Constitution of the United States or by any Act of Congress proriding for equal
rights of citizens or of all persons within the jurisdiction of the United States;
iv, 39

28 U.S.C. § 1651

(a) The Supreme Court and all courts established by Act of Congress may issue all
writs necessary or appropriate in aid of their respective jurisdictions and agreeable
to the usages and principles of law.
3, 22

42 U.S.C. § 1983

Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
RULES of the Supreme Court
Rule 10. Considerations Governing Review on Certiorari

39 (every page)

Review on a writ of certiorari is not a matter of right, but of judicial discretion. A
petition for a writ of certiorari will be granted only for compelling reasons. The
following, although neither controlling nor fully measuring the Court’s discretion,
indicate the character of the reasons the Court considers(a) a United States court of appeals has entered a decision in conflict with the
decision of another United States court of appeals on the same important matter;
has decided an important federal question in a way that conflicts with a decision by
a state court of last resort; or has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s supervisory power;
(c) a state court or a United States court of appeals has decided an important
question of federal law that has not been, but should be, settled by this Court, or

xi

has decided an important federal question in a way that conflicts with relevant
decisions of this Court.
A petition for a writ of certiorari is rarely granted when the asserted error consists
of erroneous factual findings or the misapplication of a properly stated rule of law.
Rule 12. Review on Certiorari: How Sought; Parties
2. A petitioner proceeding in forma pauperis under Rule 39 shall file an original and
10 copies of a petition for a writ of certiorari prepared as required by Rule 33.2,
together with an original and 10 copies of the motion for leave to proceed in forma
pauperis. A copy of the motion shall precede and be attached to each copy of the
petition. An inmate confined in an institution, if proceeding in forma pauperis and
not represented by counsel, need file only an original petition and motion.
3. Whether prepared under Rule 33.1 or Rule 33.2, the petition shall comply in all
respects with Rule 14 and shall be submitted with proof of service as required by
Rule 29. The case then will be placed on the docket. It is the petitioner’s duty to
notify all respondents promptly, on a form supplied by the Clerk, of the date of fling,
the date the case was placed on the docket, and the docket number of the case. The
notice shall be served as required by Rule 29.
Ride 14. Content of a Petition for a Writ of Certiorari

Entire document

1. A petition for a writ of certiorari shall contain, in the order indicated:
(a) The questions presented for review, expressed concisely in relation to the
circumstances of the case, without unnecessary detail. The questions should be
short and should not be argumentative or repetitive. If the petitioner or respondent
is under a death sentence that may be affected by the disposition of the petition, the
notation “capital case” shall precede the questions presented. The questions shall be
set out on the first page following the cover, and no other information may appear
on that page. The statement of any question presented is deemed to comprise every
subsidiary question fairly included therein. Only the questions set out in the
petition, or fairly included therein, will be considered by the Court.
i, v
(b) (i) A list of all parties to the proceeding hi the court whose judgment is sought to
be reviewed (unless the caption of the case contains the names of all the parties); v
(ii) a corporate disclosure statement as required by Rule 29.6; and ... CIP1, CIP2
(hi) a list of all proceedings in state and federal trial and appellate courts,
including proceedings in this Court, that are directly related to the case in this
Court. For each such proceeding, the fist should include the court in question, the
docket number and case caption for the proceeding, and the date of entry of the
judgment. For the purposes of this rule, a case is “directly related” if it arises from
xii

the same trial court case as the case in this Court (including the proceedings
directly on review in this case), or if it challenges the same criminal conviction or
sentence as is challenged in this Court, whether on direct appeal or through state or
federal collateral proceedings................................................................................... v, vi
(c)If the petition prepared under Rule 33.1 exceeds 1,500 words or exceeds five
pages if prepared under Rule 33.2, a table of contents and a table of cited
authorities. The table of contents shall include the items contained in the appendix.
(d) Citations of the official and unofficial reports of the opinions and orders entered
1
in the case by courts or administrative agencies......................................................
(e) A concise statement of the basis for jurisdiction in this Court, showing: (i) the
date the judgment or order sought to be reviewed was entered (and, if applicable, a
statement that the petition is fled under this Court’s Rule ll); (ii) the date of any
order respecting rehearing, and the date and terms of any order granting an
extension of time to file the petition for a writ of certiorari; (iii) express reliance on
Rule 12.5, when a cross petition for a writ of certiorari is fled under that Rule, and
the date of docketing of the petition for a writ of certiorari in connection with which
the cross-petition is fled; (iv) the statutory provision believed to confer on this Court
jurisdiction to review on a writ of certiorari the judgment or order in question; and
(v) if applicable, a statement that the notifications required by Rule 29.4(b) or (c)
1
have been made...........................................................................................................
(f) The constitutional provisions, treaties, statutes, ordinances, and regulations
involved in the case, set out verbatim with appropriate citation. If the provisions
involved are lengthy, their citation alone suffices at this point, and their pertinent
2,3
text shall be set out in the appendix referred to in subparagraph l(i).
(g) A concise statement of the case setting out the facts material to consideration of
the questions presented, and also containing the following: (i) If review of a state
court judgment is sought, specification of the stage in the proceedings, both in the
court of first instance and in the appellate courts, when the federal questions sought
to be reviewed were raised; the method or manner of raising them and the wav in
which they were passed on bv those courts; and pertinent quotations of specific
portions of the record or summary thereof, with specific reference to the places in
the record where the matter appears (e. g., court opinion, ruling on exception,
portion of court’s charge and exception thereto, assignment of error), so as to show
that the federal question was timely and properly raised and that this Court has
jurisdiction to review the judgment on a writ of certiorari. When the portions of the
record relied on under this subparagraph are voluminous, they shall be included in
the appendix referred to in subparagraph lG). (ii) If review of a judgment of a
United States court of appeals is sought, the basis for federal jurisdiction in the
3 - 36
court of first instance.
xiii

(h) A direct and concise argument amplifying the reasons relied on for allowance of
37-40
the writ. See Rule 10.
(i) An appendix containing, in the order indicated: (i) the opinions, orders, findings
of fact, and conclusions of law, whether written or orally given and transcribed,
entered in conjunction with the judgment sought to be reviewed; (ii) any other
relevant opinions, orders, findings of fact, and conclusions of law entered in the case
by courts or administrative agencies, and, if reference thereto is necessary to
ascertain the grounds of the judgment, of those in companion cases (each document
shall include the caption showing the name of the issuing court or agency, the title
and number of the case, and the date of entry); (iii) any order on rehearing,
including the caption showing the name of the issuing court, the title and number of
the case, and the date of entry; (iv) the judgment sought to be reviewed if the date of
its entry is different from the date of the opinion or order required in subsubparagraph (i) of this subparagraph; (v) material required by subparagraphs 1(f)
or 1(g)(i); and (vi) any other material the petitioner believes essential to understand
Al -Al 17, B1-B18, C1C40
the petition.
If the material required by this subparagraph is voluminous, it may be presented in
a separate volume or volumes with appropriate covers. 2. All contentions in support
of a petition for a writ of certiorari shall be set out in the body of the petition, as
provided in subparagraph l(h) of this Rule. No separate brief in support of a
petition for a writ of certiorari may be fled, and the Clerk wall not file any petition
for a writ of certiorari to which any supporting brief is annexed or appended. 3. A
petition for a writ of certiorari should be stated briefly and in plain terms and may
not exceed the word or page limitations specified in Rule 33. 4. The failure of a
petitioner to present with accuracy, brevity, and clarity whatever is essential to
ready and adequate understanding of the points requiring consideration is sufficient
reason for the Court to deny a petition. 5. If the Clerk determines that a petition
submitted timely and in good faith is in a form that does not comply with this Rule
or with Rule 33 or Rule 34, the Clerk will return it with a letter indicating the
deficiency. A corrected petition submitted in accordance with Rule 29.2 no more
than 60 days after the date of the Clerk’s letter will be deemed timely.
Rule 20. Procedure on a Petition for an Extraordinary Writ

v, 39

Issuance by the Court of an extraordinary writ authorized by 28 U. S. C. § 1651(a)
is not a matter of right, but of discretion sparingly exercised. To justify the granting
of any such writ, the petition must show that the writ will be in aid of the Court’s
appellate jurisdiction, that exceptional circumstances warrant the exercise of the
Court’s discretionary powers, and that adequate relief cannot be obtained in any
other form or from any other court.
Rule 29. Filing and Service of Documents;
xiv

viii, POS262

3. Any document required by these Rules to be served may be served personally, by
mail, or by third-party commercial carrier for delivery within 3 calendar days on
each party to the proceeding at or before the time of fling. If the document has been
prepared as required by Rule 33.1, three copies shall be served on each other party
separately represented in the proceeding. If the document has been prepared as
required by Rule 33.2, service of a single copy on each other separately represented
party suffices. If personal service is made, it shall consist of delivery at the office of
the counsel of record; either to counsel or to an employee therein. If service is by
mail or third-party commercial carrier, it shall consist of depositing the document
with the United States Postal Service, with no less than frst-class postage prepaid,
or delivery to the carrier for delivery within 3 calendar days, addressed to counsel of
record at the proper address. When a party is not represented by counsel, service
shall be made on the party, personally, by mail, or by commercial carrier.
Ordinarily, service on a party must be by a manner at least as expeditious as the
manner used to file the document with the Court. An electronic version of the
document shall also be transmitted to all other parties at the time of fling or
reasonably contemporaneous therewith, unless the party fling the document is
proceeding pro se and in forma pauperis or the electronic service address of the
party being served is unknown and not identifiable through reasonable efforts.
Federal Rules of Civil Procedure
i, ii, 19

Rulel. Scope and Purpose .......

These rules govern the procedure in all civil actions and proceedings in the United
States district courts, except as stated in Rule 81. They should be construed,
administered, and employed by the court and the parties to secure the just, speedy,
and inexpensive determination of every action and proceeding.
Notes of Advisory Committee on Rules—1937
3. These rules are drawn under the authority of the act of June 19, 1934, U.S.C.,
Title 28, §723 b and §723 c (Rules in actions at law; Supreme Court authorized to
make)
Rule 4. Summons
12

(d) Waiving Service.

(1) Requesting a Waiver. An individual, corporation, or association that is subject
to service under Rule 4(e). (£>, or (h) has a duty to avoid unnecessary expenses of
serving the summons. The plaintiff may notify such a defendant that an action
has been commenced and request that the defendant waive sendee of a summons.
The notice and request must:
XV

(A) be in writing and be addressed:
G) to the individual defendant; or
(ii) for a defendant subject to service under Rule 4(h), to an officer, a managing oxgeneral agent, or any other agent authorized by appointment or by law to receive
service of process;
(B) name the court where the complaint was filed;
(C) be accompanied by a copy of the complaint, 2 copies of the waiver form appended
to this Rule 4, and a prepaid means for returning the form;
(D) inform the defendant, using the form appended to this Rule 4, of the
consequences of waiving and not waiving sex-vice;
(E) state the date when the request is sent;
(F) give the defendant a reasonable time of at least 30 days after the request was
sent—or at least 60 days if sent to the defendant outside any judicial district of the
United States—to return the waiver; and
(G) be sent by first-class mail or other reliable means.
(2) Failure to Waive. If a defendant located within the United States fails, without
good cause, to sign and return a waiver requested by a plaintiff located within the
United States, the court must impose on the defendant.:
(A) the expenses later incurred in making sex-vice; and
(B) the reasonable expenses, including attorney’s fees, of any motion required to
collect those service expenses.
Rule 8. General Rules of Pleading
(b)Defenses; Admissions and Denials...................................

i, ii, 9, 16,

(1) In General. In responding to a pleading, a party must:
(A) state in short and plain terms its defenses to each claim asserted against it; and
(B) admit or deny the allegations asserted against it by an opposing party.
(2) Denials—Responding to the Substance. A denial must fairly respond to the
substance of the allegation.
(3) General and Specific Denials. A party that intends fix good faith to deny all the
allegations of a pleading—including the jurisdictional grounds—may do so by a
general denial. A party that does not intend to deny all the allegations must either
specifically deny designated allegations or generally deny all except those
specifically admitted.

xvi

(4) Denying Part ofan Allegation. A party that intends in good faith to deny only
part of an allegation must admit the part that is true and deny the rest
(5) Lacking Knowledge or Information. A party that lacks knowledge or information
sufficient to form a belief about the truth of an allegation must so state, and the
statement has the effect of a denial.
(6) Effect ofFailing to Deny. An allegation—other than one relating to the amount
of damages—is admitted if a responsive pleading is required and the allegation is
not denied. If a responsive pleading is not required, an allegation is considered
ii, 20
denied or avoided.
9

(c)Affirmative Defenses

(l) In General. In responding to a pleading, a party must affirmatively state any
avoidance or affirmative defense, including: • accord and satisfaction! • arbitration
and award! • assumption of risk! • contributory negligence! • duress! * estoppel!
• failure of consideration! • fraud! • illegality! • injury by fellow servant! • laches!
• license! • payment! * release! * res judicata! • statute of frauds! * statute of
limitations! and* waiver.
Rule 9. Pleading Special Matters
(b)Fraud or Mistake!

.............................................................................

21, 24-30

In alleging fraud or mistake, a party must state with particularity the
circumstances constituting fraud or mistake.
Rule 11. Signing Pleadings, Motions, and Other Papers! Representations to the
Court! Sanctions
(b)Representations to the Court. By presenting to the court a pleading, written
motion, or other paper—whether by signing, filing, submitting, or later advocating
it—an attorney or unrepresented party certifies that to the best of the person’s
knowledge, information, and belief, formed after an inquiry reasonable under the
circumstances:
(1) it is not being presented for any improper purpose, such as to harass, cause
11
unnecessary delay, or needlessly increase the cost of litigation!
(2) the claims, defenses, and other legal contentions are warranted by existing law
or by a non-frivolous argument for extending, modifying, or reversing existing law
or for establishing new law!(3) the factual contentions have evidentiary support or,
if specifically so identified, will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery! and(4) the denials of factual
contentions are warranted on the evidence or, if specifically so identified, are
reasonably based on belief or a lack of information.

xvii

(c)Sanctions
(1) In General. If, after notice and a reasonable opportunity to respond, the court
determines that Rule ll(b) has been violated, the court may impose an appropriate
sanction on any attorney, law firm, or party that violated the rule or is responsible
for the violation. Absent exceptional circumstances, a law firm must be held jointly
responsible for a violation committed by its partner, associate, or employee.
(2) Motion for Sanctions. A motion for sanctions must be made separately from any
other motion and must describe the specific conduct that allegedly violates Rule
11(b). The motion must be served under Rule 5. but it must not be filed or be
presented to the court if the challenged paper, claim, defense, contention, or denial
is withdrawn or appropriately corrected within 21 days after service or within
another time the court sets. If warranted, the court may award to the prevailing
party the reasonable expenses, including attorney’s fees, incurred for the motion.
(3) On the Court's Initiative. On its own, the court may order an attorney, law firm,
or party to show cause why conduct specifically described in the order has not
violated Rule ll(b).
i, 8, 36

Rule 12. Defenses and Objections: When and How Presented;
Motion for Judgment on the Pleadings; Consolidating Motions!
Waiving Defenses! Pretrial Hearing
(a)Time to Serve a Responsive Pleading

(l) In General. Unless another time is specified by this rule or a federal statute, the
time for serving a responsive pleading is as follows:
(A) A defendant must serve an answer:
(i) within 21 days after being served with the summons and complaint; or
(ii) if it has timely waived service under Rule 4(d), within 60 days after the request
for a waiver was sent, or within 90 days after it was sent to the defendant outside
any judicial district of the United States.
i, 8, 16, 17, 37

Rule 12(b)

(b) How to Present Defenses. Every defense to a claim for relief in any pleading
must be asserted in the responsive pleading if one is required. But a party may
assert the following defenses by motion:
(1) lack of subject-matter jurisdiction;
(2) lack of personal jurisdiction!
(3) improper venue!
(4) insufficient process!
xviii

(5) insufficient service of process!
(6) failure to state a claim upon which relief can be granted; and ...............

31

(7) failure to join a party under Rule 19.
A motion asserting any of these defenses must be made before pleading if a
responsive pleading is allowed. If a pleading sets out a claim for relief that does not
require a responsive pleading, an opposing party may assert at trial any defense to
that claim. No defense or objection is waived by joining it with one or more other
defenses or objections in a responsive pleading or in a motion.
5, 9, 16, 17

Rule 12(c)

(c) Motion for Judgment on the Pleadings. After the pleadings are closed—but early
enough not to delay trial—a party may move for judgment on the pleadings.
Rule 12(h) (2) ...................................................

8, 9, 16

(h)Waiving and Preserving Certain Defenses.
(2) When to Raise Others. Failure to state a claim upon which relief can be granted,
to join a person required by Rule 19(b). or to state a legal defense to a claim may be
raised:
(A) in any pleading allowed or ordered under Rule 7(a);
(B) by a motion under Rule 12(c); or
(C) at trial.
Rule 15. Amended and Supplemental Pleadings

15

(a)Amendments Before Trial
(2) Other Amendments. In all other cases, a party may amend its pleading only with
the opposing party's written consent or the court's leave. The court should freely
give leave when justice so requires.
Rule 16. Pretrial Conferences; Scheduling; Management

17

(b)Scheduling
(4) Modifying a Schedule. A schedule may be modified only for good cause and with
the judge's consent.
(f)Sanctions
(l) In General. On motion or on its own, the court may issue any just orders,
including those authorized by Rule 37(b)(2)(A)(ii)-(vii), if a party or its attorney:
(A) fails to appear at a scheduling or other pretrial conference;
xix

(B) is substantially unprepared to participate—or does not participate in good
faith—in the conference; or
(C) fails to obey a scheduling or other pretrial order.
Rule 26. Duty to Disclose; General Provisions Governing Discovery
(a)Required Disclosures.
(l) Initial Disclosure.
(A) In General. Except as exempted by Rule 26(a)(1)(B) or as otherwise stipulated or
ordered by the court, a party must, without awaiting a discovery request, provide to
the other parties:
(i) the name and, if known, the address and telephone number of each individual
likely to have discoverable information—along with the subjects of that
information—that the disclosing party may use to support its claims or defenses,
unless the use would be solely for impeachment; .................................... 14,15,34
(ii) a copy—or a description by category and location—of all documents,
electronically stored information, and tangible things that the disclosing party has
in its possession, custody, or control and may use to support its claims or defenses,
14,15,34
unless the use would be solely for impeachment;
(iv) for inspection and copying as under Rule 34. any insurance agreement under
which an insurance business may be liable to satisfy all or part of a possible
judgment in the action or to indemnify or reimburse for payments made to satisfy
the judgment.
19

Rule 55 Default; Default Judgment

(a) Entering A Default. When a party against whom a judgment for affirmative
relief is sought has failed to plead or otherwise defend, and that failure is shown by
affidavit or otherwise, the clerk must enter the party's default.
......................................................

12, 13

(a)Motion for Summary Judgment or Partial Summary Judgment.

13

Rule 56. Summary Judgment

A party may move for summary judgment, identifying each claim or defense — or
the part of each claim or defense — on which summary judgment is sought. The
court shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter
of law’. The court should state on the record the reasons for granting or denying the
motion.
(b)Time to File a Motion.

13
XX

Unless a different time is set by local rule or the court orders otherwise, a party
may file a motion for summary judgment at any time until 30 days after the close of
all discovery.
(c)(2) Objection That a Fact Is Not Supported by Admissible Evidence..........

13, 34

A party may object that the material cited to support or dispute a fact cannot be
presented in a form that would be admissible in evidence.
13

(e) Failing to Properly Support or Address A Fact..................................................
If a party fails to properly support an assertion of fact or fails to properly address
another party’s assertion of fact as required by Rule 56(c), the court may:
(1) give an opportunity to properly support or address the fact;
(2) consider the fact undisputed for purposes of the motion;
(3) grant summary judgment if the motion and supporting materials — including
the facts considered undisputed — show that the movant is entitled to it; or
(4) issue any other appropriate order.
(g)Failing to Grant all the Requested Relief.

n

.....................................................

If the court does not grant all the relief requested by the motion, it may enter an
order stating any material fact — including an item of damages or other relief —
that is not genuinely in dispute and treating the fact as established in the case.
(h)Affidavit or Declaration Submitted in Bad Faith.

13

If satisfied that an affidavit or declaration under this rule is submitted in bad faith
or solely for delay, the court — after notice and a reasonable time to respond — may
order the submitting party to pay the other party the reasonable expenses,
including attorney’s fees, it incurred as a result. An offending party or attorney may
also be held in contempt or subjected to other appropriate sanctions.
Federal Rules of Evidence
Rule 101. Scope; Definitions (a) Scope..................................................................

34

These rules apply to proceedings in United States courts. The specific courts and
proceedings to which the rules apply, along with exceptions, are set out in Rule
1101.
(b) Definitions. In these rules^O) “civil case” means a civil action or proceeding;
(2) “criminal case” includes a criminal proceeding;(3) “public office” includes a public
agency;(4) “record” includes a memorandum, report, or data compilation; (5) a “rule
prescribed by the Supreme Court” means a rule adopted by the Supreme Court
xxi

under statutory authority; and(6) a reference to any land of written material or any
other medium includes electronically stored information.
Rule 102. Purpose
These rules should be construed so as to administer every proceeding fairly,
eliminate unjustifiable expense and delay, and promote the development of evidence
law, to the end of ascertaining the truth and securing a just determination.
Rule 201. Judicial Notice of Adjudicative Facts

17, 18, 19, 20,21,22, 23

(a) Scope. This rule governs judicial notice of an adjudicative fact only, not a
legislative fact.
(b) Kinds of Facts That May Be Judicially Noticed. The court may judicially notice a
fact that is not subject to reasonable dispute because it:
(1) is generally known within the trial court’s territorial jurisdiction; or
(2) can be accurately and readily determined from sources whose accuracy cannot
reasonably be questioned.
(c) Taking Notice. The court:
(1) may take judicial notice on its own.: or
(2) must take judicial notice if a party requests it and the court is supplied with the
i, 17, 18, 19, 20,21,22, 23
necessary information.
(d) Timing. The court may take judicial notice at any stage of the proceeding.
(e) Opportunity to Be Heard. On timely request, a party is entitled to be heard on
the propriety of taking judicial notice and the nature of the fact to be noticed. If the
court takes judicial notice before notifying a party, the party, on request, is still
23
entitled to be heard.
(£) Instructing the Jury. In a civil case, the court must instruct the jury to accept the
noticed fact as conclusive. In a criminal case, the court must instruct the jury that it
may or may not accept the noticed fact as conclusive.
Rule 801. Definitions That Apply to This Article; Exclusions from Hearsay ...

34

The following definitions apply under this article: (a) Statement. “Statement”
means a person’s oral assertion, written assertion, or nonverbal conduct, if the
person intended it as an assertion, (b) Declarant. “Declarant” means the person who
made the statement, (c) Hearsay. “Hearsay” means a statement that: (l) the
declarant does not make while testifying at the current trial or hearing; and (2) a
party offers in evidence to prove the truth of the matter asserted in the statement.
(dl) Statements That Are Not Hearsay. A statement that meets the following
conditions is not hearsay: 0) A Declarant-Witness’s Prior Statement The declarant
xxii

testifies and is subject to cross-examination about a prior statement, and the
statement-'
34

Rule 802. The Rule Against Hearsay

Hearsay is not admissible unless any of the following provides otherwise: a federal
statute; these rules; or other rules prescribed by the Supreme Court.
Rule 803. Exceptions to the Rule Against Hearsay The following are not excluded by
the rule against hearsay, regardless of whether the declarant is available as a
witness:
(4) Statement Made for Medical Diagnosis or Treatment. A statement that:
(A) is made for — and is reasonably pertinent to — medical diagnosis or treatment;
and
(B) describes medical history; past or present symptoms or sensations; their
inception; or their general cause.
Rule 1101. Applicability of the Rules (a) To Courts and Judges.............................

34

These mles apply to proceedings before: • United States district courts; • United
States bankruptcy and magistrate judges; United States courts of appeals; - the
United States Court of Federal Claims; and - the district courts of Guam, the Virgin
Islands, and the Northern Mariana Islands, (b) To Cases and Proceedings. These
rules apply in: -civil cases and proceedings, including bankruptcy, admiralty, and
maritime cases; criminal cases and proceedings; and ■ contempt proceedings, except
those in which the court may act summarily.
Code of Conduct for United States Judges

iv, 39

Canon 2: A Judge Should Avoid Impropriety and the Appearance of Impropriety in
all Activities
(A) Respect for Law. A judge should respect and comply with the law and should act
at all times in a manner that promotes public confidence in the integrity and
40
impartiality of the judiciary.
(B) Outside Influence. A judge should not allow' family, social, political, financial, or
other relationships to influence judicial conduct or judgment. A judge should neither
lend the prestige of the judicial office to advance the private interests of the judge or
others nor convey or permit others to convey the impression that they are in a
special position to influence the judge. A judge should not testify voluntarily as a
character witness.

xxiii

(C) Nondiscriminatory Membership. A judge should not hold membership in any
organization that practices invidious discrimination on the basis of race, sex,
religion, or national origin.
iv, 40

COMMENTARY

Canon 2A. An appearance of impropriety occurs when reasonable minds, with
knowledge of all the relevant circumstances disclosed by a reasonable inquiry,
would conclude that the judge’s honesty, integrity, impartiality, temperament, or
fitness to serve as a judge is impaired. Public confidence in the judiciary is eroded
by irresponsible or improper conduct by judges, including harassment and other
inappropriate workplace behavior. A judge must avoid all impropriety and
appearance of impropriety. This prohibition applies to both professional and
personal conduct. A judge must expect to be the subject of constant public scrutiny
and accept freely and willingly restrictions that might be viewed as burdensome by
the ordinary citizen. Because it is not practicable to list all prohibited acts, the
prohibition is necessarily cast in general terms that extend to conduct by judges
that is harmful although not specifically mentioned in the Code. Actual
improprieties under this standard include violations of law, court rules, or other
specific provisions of this Code.
Amendment to Table of Contents
41

RULE 33 of the Supreme Court
2. 81/2- by 11-Inch Paper Format:

(a) The text of every document, including any appendix thereto, expressly permitted
by these Rules to be presented to the Court on 81/2- by 11-inch paper shall appear
double spaced, except for indented quotations, which shall be single spaced, on
opaque, unglazed, white paper. The document shall be stapled or bound at the
upper left-hand corner. Copies, if required, shall be produced on the same type of
paper and shall be legible. The original of any such document (except a motion to
dismiss or affrm under Rule 18.6) shall be signed by the party proceeding pro se or
by counsel of record who must be a member of the Bar of this Court or an attorney
appointed under the Criminal Justice Act of 1964, see 18 U. S. C. SUPREME
COURT RULE 34 47 § 3006A(d)(7), or under any other applicable federal statute.
Subparagraph l(g) of this Rule does not apply to documents prepared under this
paragraph.
(b) Page limits for documents presented on 81/2- by 11-inch paper are: 40 pages for a
petition for a writ of certiorari, jurisdictional statement, petition for an
extraordinary writ, brief in opposition, or motion to dismiss or affirm; and 15 pages
for a reply to a brief in opposition, brief opposing a motion to dismiss or affirm,
supplemental brief, or petition for rehearing. The exclusions specified in
subparagraph l(d) of this Rule apply.
xxiv

OPINIONS BELOW
The opinion of the United States court of appeals appears at Appendix A to the
petition and is unpublished.
The opinion of the United States district court appears at Appendix A to the
petition and is unpublished.
Jurisdiction
Federal Court
The date on which the United States Court of Appeals decided my case was
June 30, 2020.
A timely petition for rehearing was denied by the United States Court of
Appeals on November 10, 2020, and a copy of the order denying rehearing appears
at Appendix A pg. A3
The jurisdiction of this Court is invoked under U.S.C. § 1254(l).

State Court
In review of a state court judgment, the jurisdiction of this Court is invoked
under 28 U.S.C. § 1257(a)
28 U.S. C. § 1257 - State courts; certiorari
(a) Final judgments or decrees rendered by the highest court of a State in which a
decision could be had, may be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United States is drawn in question or
where the validity of a statute of any State is drawn in question on the ground of its
being repugnant to the Constitution, treaties, or laws of the United States, or where
any title, right, privilege, or immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any commission held or authority
exercised under, the United States.

1

Constitutional Provisions

United States Constitution Article III
Section I The judicial Power of the United States, shall be vested in one supreme
Court, and in such inferior Courts as the Congress may from time to time ordain
and establi sh The Judges, both of the supreme and inferior Courts, shall hold their
Offices during good Behaviour, and shall, at stated Times, receive for their Services,
a Compensation, which shall not be diminished during their Continuance in Office.
Section 2 The judicial Power shall extend to all cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties made, or
which shall be made, under their Authority;...
United States Constitution Article VI
Clause 2 This Constitution, and the Laws of the United States which shall be made
in Pursuance thereof; and all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.
United States Constitution Amendments 4, 6, 7, 8 and 14
Amendment 4 The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be violated, and
no Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the persons or
things'to be seized.
Amendment 6 In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district wherein the
primp shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation? to
be confronted with the witnesses against him; to have compulsory process for
obtaining "witnesses in his favor, and to have the Assistance of Counsel for his
defence.
Amendment 7 In Suits at common law, where the value in controversy shall exceed
twenty dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of the United States, than
according to the rules of the common law.

2

Amendment 8 Excessive bail shall not be required, nor excessive fines imposed,
nor cruel and unusual punishments inflicted.
Amendment 14 Section 1 All persons born or naturalized in the United States and
subject to the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shah abridge the
privileges or immunities of citizens of the United States? nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
A concise statement of the caseThe facts material to consideration of the questions presented
Farts of accuracy, brevity, and clarity
Pursuant to Supreme Court Rule 14(g) (ii), review of a United States court of
Appeals is sought. The basis for the district court’s jurisdiction: Plaintiff has alleged
a claim for violation of civil rights pursuant to 42 U.S.C. § 1983. Jurisdiction is
conferred upon the district court pursuant to the provisions of 28 U.S.C. § 1331 and
28 U.S.C. § 1343(a)(3). The Circuit Court had appellate jurisdiction pursuant to 28
U.S.C. § 1291. The District Court entered a final judgment granting Mario
Cardenas, Ian Downing, Felix Echevarria, Brandon Layne, Michael B. Strickland,
Bradley A. Wheeler and CITY OF KISSIMMEE Motion for Summary Judgment on
November 5, 2019. (Doc. 256). Notice of appeal was timely filed on November 27,
2019.
On April 23, 2018, Wright filed a sworn Second Amended Complaint, a 42
U.S.C. § 1983 claim for violations of Wrights 4th, 6th, 8th and 14th Amendment
Rights. Wright brought the suit against the defendants Mario Cardenas, Ian
Downing, Felix Echevarria, Brandon Layne, Michael B. Strickland, Bradley A.
Wheeler in their official capacity as employees of the Kissimmee Police
Department.^. 157. Wrights complaint asserts defendant Mario Cardenas, while
driving an undercover Kissimmee Police Department automobile crashed into
bicyclist Wright in front of the Salvation Army Family Retail Store at 105 W. Vine

St. Kissimmee, FL. at approximately 22-14. {Doc. 157 pgs. 5, 6, # 3. Statement of
claim, and, paragraph l). The Complaint further asserts defendant Cardenas
watched and did not intervene when either or both defendants Brandon Layne and
Bradley Wheeler jumped on Wrights Back, handcuffed Wright, and while Wright
was handcuffed face down on the ground with either defendant Layne or defendant
Wheeler on Wrights back, Wrights head and face were repeatedly smashed into the
asphalt/concrete pavement. Wrights face was disfigured and his nose was broken.
Paragraph #3 pg. 7 of 20 of Complaint expressly states: “Defendant Cardenas did
not even file a written report at the time of the crash on October 4, 2014”. (As
Wright continues the preparation of this petition on Saturday, December 12, 2020,
over 6 yrs. later, Wright is still uncertain of the extent of the damage to Wrights
property, the bicycle.) “Unknown KPD officers stole the bicycle (property) of
Plaintiff- and did not place it into evidence. Why?” That verbatim quotation was
provided in paragraph #15 at the top of pg. 15 of 20, last sentence of the first
incomplete paragraph. Doc. 157. IN THIS proceeding Defendant Cardenas has
failed to submit any evidence. No written statement, affidavit or deposition of
Defendant Cardenas exists in the record of this proceeding or anywhere else. All
defendants have employed the 5th Amendment Right to remain silent. A verbatim
quotation of Document 157 paragraph #2 pgs.6, 7 of 20 which states“#2- Plaintiff was transported to the hospital and was treated by Doctor
Bethany Lucille Ballinger . Dr. Ballinger authored the HPI Motor Vehicle
Crash report that was provided as Exhibit with document 121 Id. at 2 lo£21
and document 129 medical records attachments. Documented in the
Additional hpi notes: section of the report, Dr. Ballinger states: “56 yr. old
male brought to ED by EMS due to getting hit by a car. Pt. states he was hit
from back of his bicycle by a car.” Dr. Ballinger further states: “As per police
officer he was being pursued ____________ •” (Plaintiff has masked the next
4 words in the statement of Dr. Ballinger because defendant Cardenas has no
memory of October 4, 2014. However, the words of defendant Cardenas
contradict the words of perjurer Felix Echevarria.) Dr. Ballinger s further
definite statement declares “Police officer states that other police officers
pnohArl him off the bike.” Plaintiff emphasizes the underlined information.

Because, it completely contradicts the sworn written statement of defendant
Brandon T. LayneXSee Plaintiffs definite statement this document Brandon
T. Layne paragraphs.) Plaintiff has filed PLAINTIFF WITNESS LIST
(Doc.139). Dr. Ballinger, Bethany Lucille MD- Osceola Regional Medical
Center, 700 W. Oak Stl Kissimmee, FI. 34741. (407)846-2260. SUBJECT
MATTERS Attending physician to victims (plaintiff) injuries due to getting hit
by KPD vehicle and then having his face smashed into the asphalt/concrete
pavement. Her report is provided in Documents 127 and 129 (IT WILL BE
NOTED THAT PLAINTIFF HAS “masked” FOUR WORDS- WHEN
DEFENDANT CARDENAS DEMONSTRATES THAT HE EVEN HAS ANY
MEMORY OF OCTOBER 4, 2014 BETWEEN 22-12 and 23J)9 THEN WILL
WRIGHT “unmask” the FOUR WORDS. WRIGHT DOES ADVISE THAT
THE ALLEGED WORDS OF CARDENAS AS REPORTED BY DR.
BALLINGER DO CONTRADICT THE STATEMENT OF PERJURER
DEFENDANT FORMER KPD OFFICER ECHEVARRIA.” pgs.6&7of20
Page 8 of 20, paragraph 5 of Doc. 157verbatim quotation “#5- In an effort to
cover-up the true cause of Plaintiffs injuries, defendant police officers have made
many false accusations and statements.
Pg. 13 of 20 paragraph 12 Doc. 157 verbatim quotation. ‘‘#12- In support of the
unconstitutional seizure of Plaintiff by Defendants Cardenas, Layne and Wheelei,
Defendant Ian M. Downing filed a perjured probable cause affidavit that was the
basis for prosecution in the Courtroom of the Honorable Hal C. Epperson, County
Court, In and For Osceola County, FI. Case No. 2014 CT 003885. [Appendix C pgs.
C7, C8] The falsified document(s) were the basis for the prosecution of Florida
Statute 316.061 Leave Scene of Accident with property damage. Krissia Eunice
Mendez, Florida Bar #112642 was the Assistant State Attorney. On December 12,
2014, ASA Mendez filed STATE WITNESS LIST. Felix Echevarria (and his
perjured probable cause statement)was “fisted” with Ian Downing and Michael B.
Strickland. [Appendix C pgs.C9, CIO] On December 16, 2014 in the open courtroom
of Judge Epperson, Defendant Wright, pro se, disclosed to Mendez the misconduct of
defendants Echevarria, Strickland and Downing. ASA Mendez filed a NOLLE
PROSEQUI .’’[Appendix C pgs. C13, C14]
Murk Around and Find Out the TRUTH of Lying
5

Defendant Felix Echevarria’s Brady Violation(s)
Attached to Appendix C of this petition pg. C34; it is Pg. ID 84 as paginated by
the clerk of the United States District Court. It is NOTICE OF PROVISIONAL
DISCOVERY originally filed by former defendant Assistant State Attorney
Benjamin David Baird; filed pursuant to Brady v. Maryland. It states: “2) Felix
Echevarria has been suspended by the Kissimmee Police Department for he [.s/cl
pendency of an administrative and criminal investigation.” Doc.lhl paragraph 18:
paragraph 18 verbatim quotation: “#18* Defendant Felix Echevarria filed
perjured probable cause affidavit in effort to cover-up the cause of plaintiffs
injuries. The false statements of Defendant Echevarria in Case No. 2014 CT
003885 demonstrate Mr. Echevarria’s wanton predilection for subverting
truth, perpetrating fraud on state courts and denying citizens constitutional
rights. See paragraphs #12, #13. Wright was transported from the hospital to
the jail by KPD employee undercover perjurer officer Felix Echevarria Jr. In
support of the unconstitutional seizure of Plaintiff, Kissimmee Police
Department employee(former) Felix Echevarria filed a perjured probable
cause arrest affidavit that was the basis for prosecution in the Circuit Court,
In and For Osceola County, FI. Case No. 2014 CF 003651. [Appendix C pgs.
C19 - C2l] “Kissimmee Police Department employee, undercover perjurer,
detective Felix Echevarria concocted numerous material facts which are/were
deliberate and reckless departures from reality- in an effort to cover up,
justify, and rationalize his associates unlawful and unconstitutional conductwhich resulted in Defendant Wright’s broken nose.” Felix Echevarria filed
Citation #A0G2VEP [Appendix G pgs. C16, C17 ] in the County Court in Case
No. 2014 TR059134. However, Plaintiff was not issued the traffic citation
when he was unconstitutionally seized by members of Kissimmee Police
Department. Plaintiff was not told he was being issued a traffic citation. In a
sworn statement, Felix Echevarria stated that he issued Plaintiff a citation.
The citation filed by Felix Echevarria does not bear the signature of Michael
J. Wright. The citation was not certified as having been delivered to the
person cited above. (Michael J. Wright). Felix Echevarria declined to certify
the charge. Copy of the fraudulent citation is provided as exhibit to document
145. On March 7, 2017, Plaintiff was coerced into paying $113.75 to Armando
Ramirez, Clerk of the Court Osceola County, Florida for the fraudulent
citation. Appendix C pg. C15. Felix Echevarria violated the due process
Rights of Petitioner. On March 19, 2016, while the 5th DCA was exercising
jurisdiction in the cause of Florida v. Wright, Assistant State Attorney
Benjamin Baird filed a NOTICE OF PROVISIONAL SUPPLEMENTAL
6

DISCOVERY in the Circuit Court. The information was provided pursuant to
Brady v. Maryland and stated the following :l)Felix Echevarria is a witness
in this prosecution 2)Felix Echevarria has been suspended by he [sic]
Kissimmee Police Department for he pendency of an administrative and
criminal investigation. Upon receipt of the disclosure, Plaintiff advised the 5th
DCA. The 5th DCA, after disclosure by Plaintiff of the information, affirmed
and mandated further proceedings in the circuit court. [Appendix C pg. C40]
On February 28, 2018 at about 9:10 a.m. Plaintiff contacted Mirnaly
Maldonado, secretary to Chief Jeff O’Dell of the Kissimmee Police
Department. Ms. Maldonado has knowledge of Defendant Felix Echevarria,
and, that he is not employed by KPD. Plaintiff, as already stated has filed
PLAINTIFF WITNESS TJST (Doc.139) and SUPPLEMENTAL PLAINTIFF
witness T.TST (Doc.140). On pages 2*3 are the following witnesses who are
able to provide definite statements about Defendant Felix Echevarria. See
Doc. 140. The character witnesses who have personal knowledge are:
Edwards, William- Chief Investigator, State Attorney Office, 2 Courthouse
Sq., Kissimmee, FI. 34741 SUBJECT MATTER: Kissimmee Police officers
Perpetratin’ fraud on state courts. Kammeraad, Joshua* Assistant Public
Defender, 2 Courthouse Sq., Kissimmee, FI. 34741 SUBJECT MATTER:
Personal witness to Kissimmee Police perjuren’ and plotting to subvert
justice. O’Dell, Jeff- Chief, Kissimmee Police Department, 8 N. Stewart AvJ
Kissimmee, FI. 34741.(407) 847-0176. SUBJECT MATTER: The Long History
of misconduct by former KPD employee, habitual bar and perjurer defendant
Echevarria. The arrest, prosecution, and dismissal of Mr. Echevarria and his
perjure associates. Schlarf, Shannon-- Assistant State Attorney, 2
Courthouse Sq., Suite 3500; Kissimmee, FI. 34741.SUBJECT MATTER:
Personal knowledge of the official misconduct habits of defendant Echevarria
and his known perjure associate(s) and accomplices Detective Danielle
Tiffany Hall and Detective Taylor McFee. Smallwood, Don- City Attorney Kissimmee, FI. Office of City Attorney, 101 Church St; Kissimmee, FI. 34741.
(407)518-2310. SUBJECT MATTER: Law. City policy concerning perjurer
employees! does the city cooperate in protecting perjurer employees from
victim plaintiff? Sued, Christopher- Investigator, Judicial Services,
Kissimmee Police Department, 8 N. Stewart Av; Kissimmee, FI. 34741. (407)
847*0176ext.3232. SUBJECT MATTER: Personal knowledge of the official
misconduct habits of defendant Echevarria and Echevarria’s known
accomplices Detective Danielle Tiffany Hall and Detective Taylor McFee.
Investigator Succi is the Officer responsible for the Kissimmee Police
Department Judicial Services Warrant Entry Form and Arrest Affidavit as
the basis to request an arrest warrant that was signed by defendant A.
James Craner.UppenrfixApg. A117] Assistant State Attorney Shannon
7

Schlarf, William Edwards of the Chief Investigators Office of the Ninth
Judicial Circuit and Joshua Kammeraad of the Public Defender’s Office have
personal knowledge of defendant Echevarria’s wanton predilection for
subverting truth, perpetratin’ fraud on court(s), and denyin’ citizens
constitutional Rights.”
Defendant Echevarria does not deny that he, defendant Echevarria is a habitual
perjurer who filed a perjured probable cause affidavit alleging false, fictitious and
invented crimes against Petitioner Wright in order to cover up the true and actual
details of the events that resulted in Petitioner Wrights disfigured face and broken
nose. Defendant Echevarria has filed no statement, affidavit, deposition or evidence
in this rasp Prior to defendant Echevarria’s third and final termination in March of
2016, Echevarria had previously been fired (2X) for lying and misconduct. Appendix
A pg. All7 is the request for an arrest warrant from Judge A. James Craner
Defendant’s Defense
On May 14, 2018, Defendants filed 3 pg. Document 160 with no attachments or
affidavits; Doc. 160 is attached with Appendix A pgs. A114-A116. The title of the
responsive pleading document *Answer and Affirmative Defenses to Plaintiff's
Second Amended Complaint for Defendant City of Kissimmee”. The first sentence of
the pleading states: ‘Defendant City of Kissimmee files this answer and affirmative
defenses to the Plaintiff’s second amended complaint.” Federal Rules of Civil
Procedure Rule 12 governs Defenses and Objections. Rules 12(b) and 12(h) verbatim
quotation:
“(b)How to Present Defenses. Every defense to a claim for relief in any
pleading must be asserted in the responsive pleading if one is required. But a
party may assert the following defenses by motion- (l) lack of subject matter
jurisdiction; (2) lack of personal jurisdiction; (3) improper venue; (4)
insufficient process! (5) insufficient service of process? (6) failure to state a
rlaim upon which relief can be granted; and (7) failure to join a party
under Rule 19. A motion asserting any of these defenses mustbe made before
pleading if a responsive pleading is allowed. If a pleading sets out a claim foi
relief that does not require a responsive pleading, an opposing party may
assert at trial any defense to that claim. No defense or objection is waived by

joining it with one or more other defenses or objections in a responsive
pleading or in a motion.”
Pursuant to Rule 12(h) “Waiving and Preserving Certain Defenses.
(2) When to Raise Others. Failure to state a claim upon which relief can be
granted, to join a person required by Rule 19(b), or to state a legal defense to
a claim may be raised:(A) in any pleading allowed or ordered under Rule
7(a);(B) by a motion under Rule 12(c); or(C) at trial.”
No pleading was allowed or ordered under Ride 7(a); Defendants did not present the
defense of Fadure to state a claim upon which relief can be granted by a motion
under Rule 12(c). Document 238 is the Joint Final Pretrial Statement signed by
counsel for the defendants and Wright, Appendix A pg. A86, Defendant’s concise
statement of those issues which remain to be litigated does not include a legal
defense of fadure to state a claim upon which relief can be granted. Page A87
paragraph 13 “A concise statement of any disagreement as to the application of the
Federal Rules of Evidence or the Federal Rules of Civil Procedure.” “NONE.”
Wrights Second Amended Complaint, asserted claim(s) for violations of Wrights 4th,
6th, 8th and 14th Amendment Rights. Plural and Multiple claims. Ride 8 (b) (l) (A)
states “(1) In General. In responding to a pleading, a party must: (A) state in short and
plain terms its defenses to each claim asserted against it;”. And Rule 8(c) states (c)
Affirmative Defenses “(1) Jn General. In responding to a pleading, a party must
affirmatively state any avoidance or affirmative defense, including: • accord and
satisfaction; • arbitration and award; • assumption of risk; • contributory
negligence; * duress; • estoppel; • fadure of consideration; • fraud; • illegality; *
injury by fellow servant; • laches; • license; * payment; • release; • res judicata; •
statute of frauds; • statute of limitations; and- waiver.” Paragraph 2 of defendants
Document 160 verbatim quotation ‘Defendant denies the remaining allegations of
Plaintiffs Second Amended Complaint”. Respondents are the defendants whose
Document 160 faded to state in short and plain terms its defenses to each claimthe 6th, 8th and 14th Amendment Rights of Petitioner Wright.
District Court Case Management and Scheduling Order

9

Doc. 168 District Court Case Management and Scheduling Order is attached to
Appendix A at pgs. A29-A41. Petitioner and counsel for defendants both agreed to
the contents and deadlines of Doc. 168 that was filed June 26, 2018. In fact, it was
exclusively Counsel Forsythe who prepared the Case Management Report, it merely
required Wrights signature when Wright went to Counsel Forsythe’s office. The
Discovery Deadline agreed to and established in the CASE MANAGEMENT AND
SCHEDULING ORDER is December 14, 2018; and the Dispositive Motions and
DaubertMotions deadline is January 18, 2019. See Appendix A pg. A29.
The Arbitrary and Intentional Discrimination of
District Court Judge Carlos Mendoza
Pursuant to the record in this cause, the evidence discloses the arbitrary and
intentional discrimination of the District Court first resumed April 19, 2019. On
Aprill9, 2019 the District Court filed document 220, an ENDORSED ORDER
granting document 219 Motion to extend time. Document 219 was filed April 18,
2019, ONE DAYPRIOR. Wright rim eTy filed document 225 Memoranda in
Opposition and Motion to Strike by hand delivery to the court May 1 , 2019.
Furthermore, April 24, 2019 Wright filed Document 222 a sworn affidavit titled
MEMORANDUM. The sworn four pg. affidavit/memorandum includes the following
Verbatim Quotation paragraphs:
“6. Plaintiffs Memoranda in Opposition is due within fourteen days
after being served. Defendant City of Kissimmee s Motion to Extend
Dispositive Morions noadlino was filed 4/18/19 and received by Plaintiff
Saturday 4/20/19. On Wednesday May 1, 2019 Plaintiff shah hand deliver to
the Court Plaintiffs Memoranda in Opposition. This memorandum is hastily
prepared as an initial_effort and response to Counsel Forsythe s false and
fvtmrlnW Wa 1 Rule 3.01(g) certification. 7. Equal Protection of the law (and
10

the Court’s ORDER, Doc.168 is requested by the Plaintiff. Defendants
document 219 is presented for an improper purpose to harass, cause
unnecessary delay and needlessly increase the cost of litigation.” The eleven
pg. sworn affidavit that is document 225 Memoranda in Opposition and Motion
to Strike includes the following factual information in the identified
paragraphs;20. Paragraph 13 of Counsel Forsythe’s document 219 states:
“until yesterday, counsel mistakenly interpreted...” Counsels mistaken
interpretation does not constitute good cause. 21. Paragraph 14 of Counsel
Forsythe’s document 219 falsely Claims “...it was not possible to fide a motion
for summary judgment before January 18, 2019 due to delays caused by the
Plaintiff...” Preceding paragraphs 6-8 and 11-18 demonstrate the falsity of
this statement; particularly paragraph 13. 22. Paragraph 15 of Counsel
Forsythe’s document 219 is immaterial and FALSE. Counsel states
“Undersigned counsel submits that now that the good faith attempt to resolve
this case at mediation has failed, that undersigned counsel should be given the
opportunity to file a motion for summary judgment,...”.23. The first issue of
the statement is that there was no good faith attempt at mediation. THE
MORE IMPORTANT ISSUE OF THE STATEMENT IS: The timely filing of a
motion for summary judgment is not dependent on mediation even taking
place. 24. Discovery has been closed since December 14, 2018. Counsel
Forsythe’s failure to comply with the order of the Court does not constitute
good cause and counsels Defendant City of Kissimmee’s Motion to Extend
Dispositive Motions Deadline violates Fed. R. Civ. P. Rule 11(b)(1). Page 11 of
11 of document 225 expressly states: “Relief Plaintiff requests the Court strike
the pleadings of counsel Forsythe (Doc.219) and any and all further relief to
which Plaintiff is justly entitled.” See Document222.
United States District Court Judge Carlos Mendoza has recklessly,
11

irrationally, arbitrarily and intentionally discriminated against Wright. The facts
are indisputable. The judge’s honesty, integrity and impartiality is impaired, a
reasonable inquiry will not conclude otherwise. Judge Mendoza Ordered: “A motion
to extend an established deadline normally will be denied if the motion fails to
recite that: 1) the motion is joint or unopposed, 4) all parties agree that any
discovery conducted after the dispositive motions date established in this Order will
not be available for summaryjudgment purposes. ” SEE Docl68 Page ID 901
APPENDIXA pg. A33, paragraph 2 at start of the page. Document 219, Motion to
extend time, failed to recite the requisite information. EVEN SO, as already stated,
the very next day Judge Mendoza granted the motion; NOT WANTING TO BE
BOTHERED WITH IGNORANT PRO SE PAUPER (even though Wright paid the
filing fee in the District Court and spent thousands of dollars effecting and
perfecting service of the Complaint because all of the original 15 defendants refused
to waive service pursuant to rule 4(d)). Judge Mendoza’s actions clearly revealed his
attitude. It didn’t matter what Wright had to say in Wrights Memoranda in
Opposition; therefore, why bother to even wait for Wright’s objection.
On April 26, 2019, exactly 100 days after the jointly agreed upon dispositive
motions deadline of January 18, 2019, Respondent defendants filed Document 224
Motion for Summary Judgment pursuant to Rule 56 of the Federal Rules of Civil
Procedure. Respondent defendant’s document 224 alleged Failure to state a claim
upon which relief can be granted. Attached with Appendix A pgs. A42, A43 of this
petiton is the affidavit of Shannon Praco. Wright timely filed Doc. 230 Amended
Memorandum in opposition that included the following information: Verbatim
quotation of numbered paragraphs: “1. Plaintiff disputes all facts set forth by
Defendant City of Kissimmee in unsworn Motion for Summary Judgment On
Behalf of the City of Kissimmee Defendants (Doc.224).The materials cited to
support Defendant’s facts cannot be presented in a form that will be admissible in
evidence.2. Plaintiff presents the sworn undisputed facts under penalty of perjury
and states: 3. The affidavit and declarations of Defendants are submitted in bad
12

faith and solely for delay. Defendants document 224 fails to comply with Fed. R.
Civ. P. Rule 56 (a), (b), (c) (2), (e), but does comply with (h). 4. On June 29, 2018
Defendant’s provided Defendant’s Rule 26 Initial Disclosures. On pgs.1-3 the names
of witnesses are identified. On pgs. 3-4 the tangible items which may be used to
support claims or defenses are identified. No additional disclosures were provided
by defendants. 5. Defendant’s Motion for Summary Judgment On Behalf of the City
nf Kissimmee Defendants (Doc.224) was filed April 26, 2019 by Ian Forsythe and
was not sworn to. The document is not an affidavit. 4£Z££'U.S.D.C. Page ID 1215.
6. Defendant City of Kissimmee’s Motion for Summary Judgment On Behalf of the
City of Kissimmee Defendants (Doc.224) includes an affidavit executed by Shannon
Proco on April 26, 2019. *SE£'U.S.D.C. Page ID 1216 and 1217. 7. Defendant’s Rule
Initial Disclosures does not identify Ian Forsythe or Shannon Proco as a witness
who may have discoverable information to support claims or defenses. See
paragraph (A) pgs.1-3 Defendant’s Rule 26 Initial Disclosures. 8. Fed.R.Civ.P. Rule
56(c)(2) states: Objection That a Fact Is Not Supported by Admissible Ewdence. A
party may object that the material cited to support or dispute a fact cannot be
presented in a form that would be admissible in evidence. 9. Fed.R.Civ.P. Rule 56(e)
states: Failing to Properly Support or Address a Fact. If a party fails to
properly support an assertion of fact or fails to properly address another party’s
assertion of fact as required by Rule 56(c), the court may: 10. The Discovery
Deadline established in the CASE MANAGEMENT AND SCHEDULING
ORDER (Doc.168) is December 14, 2018; and the Dispositive Motions and Daubert
Motions Deadline established in the CASE MANAGEMENT AND SCHEDULING
ORDER is January 18, 2019. 11. Pursuant to the Defendant’s document 224 pg.15,
4th fine, paragraph 36 “The Plaintiff gave a deposition in this civil case on February
5, 2019.” The Plaintiffs deposition was conducted after the dispositive motions date
established in the CASE MANAGEMENT AND SCHEDULING ORDER and is not
available for summary judgment purposes. JSE£'U.S.D.C. Page ID 1206. 12. All
13

parties have agreed that any discovery conducted after the dispositive motions date
established in the CASE MANAGEMENT AND SCHEDULING ORDER(Doc. 168)
will not be available for summary judgment purposes. See pg.5 paragraph 2 line 4).
13. As stated in paragraph 5, Document 224 was filed April 26, 2019. U.S.D.C. Page
ID 1216, 1217 is an affidavit of Shannon Proco. As previously stated Shannon Proco
is not identified as a witness on Defendants Rule 26 Initial Disclosures. The
affidavit of Shannon Proco is not identified as a tangible item which may be used to
support claims or defenses. The affidavit of Shannon Proco was executed on April
26, 2019. See U.S.D.C. Page ID 1217, 6th line. 14. The affidavit and documents of
Shannon Proco were produced after the dispositive motions date established in the
CASE MANAGEMENT AND SCHEDULING ORDER and are not available for
summary judgment purposes. See paragraph 10. 15. The entire document 224 is
null and void. Plaintiff objects on the grounds that the facts of Defendant’s
document 224 are Not Supported by Admissible Evidence. 16. Fed.R.Civ.P. Rule
16(f)(1)(C) provides for Sanctions if a party or its attorney fails to obey a scheduling
or other pretrial order. 18. Controlling Supreme Court precedent is Smith v. Wade
461 U.S. 30(1983):

“Punitive damages are available in a proper case under

1983.” Furthermore, on pg.42 “The Court further explained the standard for
punitive damages in Milwaukee & St. Paxil R. Co. v. Arms, 91 U.S. 489 (1876), a
diversity railroad collision case* "Redress commensurate to such [personal] injuries
shoidd be afforded. In ascertaining its extent, the jury may consider all the facts
which relate to the wrongful act of the defendant, and its consequences to the
plaintiff, but they are not at liberty to go farther, unless it was done willfully, or
was the result of that reckless indifference to the rights of others which is
equivalent to an intentional violation of them. In that case, the jury are authorized,
for the sake of public example, to give such additional damages as the
circumstances require. The tort is aggravated by the evil motive, and on this rests
14

the rule of exemplary damages." Id., at 493.” The preceding verbatim quotation is
concluded! No reply was Bled by the Defendants. Federal Rules of Civil Procedure
Rule 26 requires “Duty to Disclose! General Provisions Governing Discovery (a)
Required Disclosures, (l) Initial Disclosure. (A) In General. Except as exempted
by Rule 26(a)(1)(B) or as otherwise stipulated or ordered by the court, a party must,
without awaiting a discovery request, provide to the other parties:
(i) the name and, if known, the address and telephone number of each individual
likely to have discoverable information—along with the subjects of that
information—that the disclosing party may use to support its claims or defenses,
unless the use would be solely for impeachment;
(ii) a copy—or a description by category and location—of all documents,
electronically stored information, and tangible things that the disclosing party has
in its possession, custody, or control and may use to support its claims or defenses,
unless the use would be solely for impeachment;
Appendix A pgs. A42 and A43 are unequivocal Defendant Discovery violations
pursuant to Rule 26(a)(l)(A)(i) and 26(a)(l)(A)(ii). Furthermore, Appendix A pg. A32
pg. 4 of 16 of the the Case Management and Scheduling Order states the following
verbatim quotation: “the Court expects that a party alleging that a pleading fails to
state a claim will confer with counsel for the opposing party before moving to
dismiss and will agree to an order permitting the filing of a curative amended
pleading. Fed. R. Civ. P.15.”
Thereafter April 26, 2019, on May 17, 2019, District Court Judge Mendoza
filed Document 231 which modified document 168, the Case Management and
Scheduling Order. See Appendix A pgs. A27, A28. Verbatim Quotation of document
231, ORDER. “THIS CAUSE is before the Court upon sua sponte review. On April
19 2019, the Court granted Defendants, Motion to Extend Dispositive Motions
Deadline and set the deadline for May 1, 2019. (Apr. 19 2019 Order, Doc.220). The
remaining deadlines in this case must also be amended to account for the extension
of the dispositive motions deadline. Accordingly, it is ORDERED and ADJUDGED
15

that the Case Management and Scheduling Order (Doc. 168) will be amended as
follows- 1. All other Motions Including Motions in Limine- August 1, 2019 - 2.
Meeting in Person to Prepare Joint Final Pretrial Statement- September 3, 2019 3. Joint Final Pretrial Statement: September 13, 2019 - 4. Trial Status Conference:
September 19, 2019 at 10:00 A.M. - 5. Trial Term Begins: October 1, 2019.”
Verbatim Quotations of Document 168 Appendix A pgs. A29*A41 include the
following: A32 paragraph “B. 1. Dispositive Motions Deadline and Trial Not
Extended - Motions to extend the dispositive motions deadline or to continue the
trial are generally denied. The Court cannot extend a dispositive motions deadline
to the eve of trial.” A33 paragraph “2. Extensions of Other Deadlines Disfavored A motion to extend an established deadline normally will be denied if the motion
fails to recite that: 3) all parties agree that the extension will not affect the
dispositive motions deadline and trial date. 5) no party will use the granting of the
extension in support of a motion to extend another date or deadline.”
Observation and recitation of the relevant Law and Rules of the Supreme
Court reveals the following concerning the defense of “failure to state a claim upon
which relief can be granted.” Rule 8(b)(1)(A), (B). (1) In General. In responding to a
pleading, a party must: (A) state in short and plain terms its defenses to each claim
asserted against it: and (B) admit or deny the allegations asserted against it by an opposing
party. Rules 12(b) and 12(h) verbatim quotations were previously expressed on pg. 8 of this
petition; Wright presents Rule 12 (c) after Rule 12(h) which expressly states: “Waiving
and Preserving Certain Defenses (2) When to Raise Others. Failure to state a claim
upon which relief can be granted, to join a person required by Rule 19(b), or to state
a legal defense to a claim may be raised:(A) in any pleading allowed or ordered
under Rule 7(a);(B) by a motion under Ride 12(c); or(C) at trial.” Rule 12(c)expressly
states “(c) Motion for Judgment on the Pleadings. After the pleadings are closed—
but early enough not to delay trial—a party may move for judgment on the
pleadings.” The operative phrase is but early enough not to delay trial. As already
stated on pg. 12 of this petition “On April 26, 2019, exactly 100 days after the jointly
agreed upon dispositive motions deadline of January 18, 2019, Respondent
16

defendants filed Document 224 Motion for Summary Judgment pursuant to Rule 56
of the Federal Rules of Civil Procedure. Respondent defendant’s document 224
alleged Failure to state a claim upon which relief can be granted.” Also, as just
stated on previous pg.15, on May 17, 2019, District Court Judge Mendoza modified
document 168, Case Management and Scheduling Order. Pursuant to the Rules of
Procedure promulgated by the Supreme Court the only proper method of raising the
defense of Failure to state a claim upon which relief can be granted is by motion
under Rule 12, either 12(b) or 12(c), or at trial. Rule 16(b)(4) expressly states in
short and plain terms “Modifying a Schedule. A schedule may be modified only for
good cause and with the judge's consent. The operative phrase is A schedule may be
modified only for good cause. The pleadings of the record in this case unequivocally
demonstrate that no good cause did exist, ever existed or could ever exist. The
timely lack of due diligence by defendants does not constitute “good cause”.
Document 231, the ORDER of District Court Judge Mendoza is demonstration of
the reckless animus and arbitrary and intentional discrimination of District Court
Judge Carlos Mendoza. Judge Mendoza does not respect nor comply with the law.
The appearance of impropriety occurs when reasonable minds, with knowledge of
all the relevant circumstances disclosed by a reasonable inquiry, would conclude
that the judge’s honesty, integrity, impartiality, temperament, or fitness to serve as
a judge is impaired. The professional conduct of Judge Mendoza is reckless,
improper, inappropriate and irresponsible. Additional instance and demonstrations
of the arbitrary and intentional discrimination of Judge Mendoza are forthcoming.
Federal Rules of Evidence Rule 201
Judicial Notice of Adjudicative Facts
Pursuant to Federal Rules of Evidence Rule 201(c) (2) that states: “(c) Taking
Notice. The court: (2) must take judicial notice if a party requests it and the court is
supplied with the necessary information.”
Wright filed 4 distinct Motions for Judicial Notice commencing April24, 2019
document 223; Mayl, 2019 document 226; Julyl7, 2019 document 235; September
17

24, 2019 document 246. All 4 Motions for Judicial Notice were sworn to. Defendants
did not file Memoranda in Opposition to any of the 4 affidavits. United States
District Court trial judge Carlos E. Mendoza did not rule on any of the 4 motions.
Copies of the documents are provided in the appendix and are precisely quoted
forthwith.
Provided in Appendix A is Doc.223 Plaintiffs Motion for Judicial Notice pages
A108-A113. The following verbatim quotations are excerpted from document 223.
Pg. A113 “ELEVENTH CIRCUIT PATTERN JURY INSTRUCTIONS (2019)TRIAL
INSTRUCTION 2.5 “The rules of evidence allow me to accept facts that no one can
reasonably dispute. The law calls this “judicial notice.” I’ve accepted [state the fact
that the court has judicially noticed] as proved even though no one introduced
evidence to prove it. You must accept it as true for this case.” Take judicial notice of
the deprivation of Plaintiffs 6th Amendment Rights by Defendants who were acting
under color of state law. The Court is supplied with the necessary information. Also,
take judicial notice of the deprivation of Plaintiffs Right to due process and equal
protection of the law. The 14th Amendment Rights of Plaintiff.” 4ppendix-pg.Alll
“8. The Adjudicative Facts requested to be Judicially Noticed are fundamental
principles of Constitutional Law as recognized by the United States Supreme Court
and Florida Supreme Court.” Appendixpg. A109 “2. Plaintiff has asserted multiple
deprivation[s}of due process as well as multiple deprivations of rights secured by
the Sixth Amendment of the United States Constitution. Specifically, (l), the Right
to be informed of the nature and cause of the accusation, and (2), to have the
[effective] Assistance of Counsel for his defense. “4. Adjudicative Facts requested to
be noticed^ multiple deprivations of Sixth Amendment Rights as identified in
paragraph 2. Furthermore, it is a basic tenet of constitutional law that due process
is violated when an individual is convicted of a crime not charged in the charging
instrument. See State v. Gray, 435 So. 2d 816, 818(Fla. 1983)”.Memorandum of Law
Almendarez-Torres v. United States, 523 US 224; United States v. Resendiz-Ponce,
549 US 102; Strickland v. Washington, 466 US 668 Polite v. State, 973 So.2d
18

1107,*1108 *1114,15 (Fla. 2007) State v. Dye, 346 So. 2d 538 *541 (Fla. 1977)State
v. Gray, 435 So. 2d 816, 818 (Fla. 1983) The preceding verbatim quotation is ended.
Appendix A Doc.226 Plaintiff’s Second Motion for Judicial Notice pages
A102-A107. The following verbatim quotations are excerpted from document 226.
A103 “2. Defense Counsel Ian D. Forsythe refuses to conduct himself in a
professional manner. Mr. Forsythe refuses to comply with the CASE
MANAGEMENT AND SCHEDULING ORDER. On April 18, 2019 Plaintiff mailed
for filing via U.S.P.S. Plaintiff’s Motion for Sanctions (Doc.221) On April 22, 2019
Plaintiff mailed for Filing via U.S.P.S MEMORANDUM (Doc.222) On April 23, 2019
Plaintiff mailed for filing via U.S.P.S. Plaintiffs Motion for Judicial Notice.
(Doc.223)3. Defense Counsel refuses to stipulate to as many facts and issues as
possible in order to assist the Court. Defense Counsel Forsythe refuses to engage in
“an active and substantial effort to stipulate at length and in detail as to agreed
facts and law, and to limit, narrow, and simplify the issues of fact and law that
remain contested.4. Defense Counsel refuses to comply with Fed.R.Civ.P.i; securing
the just, speedy, and inexpensive determination of the action.” Pg. A104 “6.
Complaint (Doc. l) was served upon perjurer Defendant Felix Echevarria on June 8,
2017;(Doc.67). No response had been served within the time allowed by law nor had
defendant Echevarria sought additional time within which to respond. Default
entered against defendant Echevarria on June 30, 2017. On July 12, 2017 Plaintiff
filed Amended Motion for Clerk’s Default (Doc.85). On July 13, 2017 the Court
issued an Amended Order (Doc.89) directing the Clerk to consider the Amended
Motion for Entry ofClerk’s Default (pg.9,#7 of Doc.89). On July 13, 2017 ENTRY OF
DEFAULT was entered pursuant to Fed.R.Civ.P. Rule 55(a).” 8. The effect of
Defendant Felix Echevarria’s failure to Deny [A104, A105] the allegations of Plaintiffs
Complaint (Doc.l) is: Defendant Felix Echevarria admits to aU of the allegations of
Document l; violation of petitioners 4th,5th,6th,8th, and 14th Amendment Federal
Constitutional Rights. See Fed.R.Civ.P. Rule 8(b) (6).” 11. Federal Rules of Civil
19

Procedure RULE 1 SCOPE AND PURPOSE States: “They should be construed,
administered, and employed by the court and the parties to secure the just, speedy,
and inexpensive determination of every action and proceeding.” 12. Defendants
have no interest in a quality trial. Their only interest is subverting and preventing
and perverting justice. There is no interest in assisting the Court. The only interest
is the continued deprivation of due process and equal protection. Appendixpg. A107
“Take judicial notice of the adjudicative fact of default by Defendant Felix
Echevarria and the effect of failing to deny the allegations of Plaintiff as stated in
Document 1, the violation and deprivation of Plaintiffs 4th, 5th, 6th, 8th and 14th
Amendment Constitutional Rights. The Court is supplied with the necessary
information. Additionally, take judicial notice of adjudicative facts that defendant
law enforcement officials were acting under color of state law.” The preceding
verbatim quotation is concluded!
Appendix A Doc. 235 pages A88-A91 is Plaintiffs Third Motion for Judicial
Notice. The following verbatim quotations are excerpted from document 235.
“1) On October 4, 2014 at approximately 2244 the bicycle of Plaintiff(and Plaintiff)
was seized without a warrant. 2) The seizure was conducted by the Kissimmee
police officer defendants. 3) Defendant’s Ian Downing, Felix Echevarria, Brandon
Layne and Bradley Wheeler filed reports of the incident. 4) The reports filed by the
defendants fail to identify the disposition of the bicycle. The bicycle of Plaintiff was
not placed into evidence. The bicycle of Plaintiff was not returned to Plaintiff.
Plaintiffs bicycle was essential evidence for disproving, rebutting and debunking
Defendant Echevarria’s entire false narrative and establishing that the bicycle had
been hit by an automobile. 5) Plaintiffs SECOND AMENDED COMPLAINT
(Doc.157) paragraph 15 at the top of pg. 15 asserts “UNKNOWN KPD OFFICERS
STOLE THE BICYCLE (PROPERTY) OF PLAINTIFF- AND DID NOT PLACE IT
INTO EVIDENCE. WHY?” 6) Plaintiffs document 171 PLEADING SPECIAL
MATTERS pursuant to Federal Rules of Civil Procedure Rule 9(b) “Fraud or
20

Mistake ...” asserts at the start of pg.4 “No Chain of Custody record of the bicycle of
Plaintiff was provided by counsel for defendants in Defendant's Rule 26 Initial
Disclosures. The Discovery materials of Mr. Forsythe, counsel for defendants, are
identical to the discovery materials provided by former defendant and witness
Designated Assistant State Attorney Benjamin David Baird on Nov. [A90] 18 of
2014. The point is- the security of Plaintiffs person and effects/ property-bicycle,
was violated. The larger point is: Plaintiffs bicycle had lights and was disappeared.
The disappearance was unconstitutional, calculated, malicious and fraudulent.”?)
Plaintiff filed document 217 SUMMARY of Material Issues for Pre Trial Mediation
where in second paragraph pg.6of8 “Plaintiff asserts an objective reasonableness
standard is appropriate in determination of the warrantless “seizure”(theft) of
Defendants bicycle. Plaintiff further asserts the intention of all Defendant’s is
obstruction of justice. Obfuscation and fraud is the cumulative purpose and
objective of the Defendant’s false narratives. It is attempted cover-up of the FACT of
Defendant Mario Cardenas vehicle colliding with Plaintiffs bicycle.”
8) All Defendant’s have violated Florida statute 918.13 Tampering with or
fabricating physical evidence.—
(l) No person, knowing that a criminal trial or proceeding or an investigation by
a duly constituted prosecuting authority, law enforcement agency, grand jury or
legislative committee of this state is pending or is about to be instituted, shall:
(a) Alter, destroy, conceal, or remove any record, document, or thing with the
purpose to impair its verity or availability in such proceeding or investigation; or
(b) Make, present, or use any record, document, or thing, knowing it to be false.
9) Defendant Felix Echevarria’s pre-textual probable cause for allegedly
attempting to seize bicyclist Plaintiff: the bicycle did not have lights. Plaintiff
admits the bicycle did have lights and that the bicycle was destroyed, concealed or
removed for the purpose of impairing its verity or availability. Conclusive
Adjudicative Fact to be Noticed 10) The Court is supplied with the necessary
21

information as stated herein and previously. Plaintiff has been subjected to the
deprivation of Rights secured under the 4th and 14th Amendments of the
Constitution. Defendants are eligible for both compensatory and punitive damages.”
The preceding verbatim quotation is concluded!
Appendix A Doc.246 Plaintiffs Fourth Motion for Judicial Notice pages A75A78. The following verbatim quotations are excerpted from document 246.
Beginning Appendix A75.
“Plaintiff asserts equal protection of the law.
UNDISPUTED FACTS
l) Pursuant to Federal Rules of Evidence Rule 201(d): “The court may take judicial
notice at any stage of the proceeding”. 2) On September 13, 2019 Plaintiff filed
PLAINTIFF TRTAT. RRTTCF (Doc.240) on the issue of Excessive Force. The brief was
a sworn affidavit inclusive of relevant information regarding pertinent information
on the issue of excessive force. [Appendix A1Q] 3) Defendants have declined to file a
Trial Brief. 4) Also on September 13, 2019 Defense Counsel Forsythe filed Joint
Final Pretrial Statement [Appendix A83-A87] that had been signed by Plaintiff and
Counsel Forsythe. 5) On September 12, 2019 at approximately 3:15PM, at the office
of Mr. Forsythe, Plaintiff and Defense Counsel signed the agreed upon Joint Final
Pretrial Statement, “which will control the course of the trial”. 6) The pertinent,
relevant and material agreed upon FACTS of the Joint Final Pretrial Statement are
in paragraph 9-2; Defendant’s provide a concise statement of facts that are admitted
“The City of Kissimmee officers involved in this case were acting under color of
law”. And paragraph 3B. Defendant’s Statement: “The City of Kissimmee denies
that its law enforcement officers used reasonable force during the Plaintiffs arrest”.
7) There are two essential elements in a suit under 42 U.S.C. § 1983; (l) Defendants
were acting under color of state law; (2) Plaintiff was denied a Right secured under
the Constitution. 8) Defendant’s and Plaintiff agree that Plaintiff was subjected to
excessive force. Defendant’s and Plaintiff agree that Defendants were acting under
22

color of law. 9) Paragraph 11 of the Joint Final Pretrial Statement states:A concise
statement of those issues of fact which remain to be litigated. Subparagraph A
Defendants’ Statement of issues: 2. Assuming a constitutional violation occurred,
whether the Plaintiff suffered any damages, and, if so, what nature and extent.
[Appendix All] 10) Defendants’ assumption of a constitutional violation is agreed
with by Plaintiff who has actual personal memory and experience of the
constitutional violation[s]. Plaintiff has identified the nature and extent of his
damages. The wrongful acts of the defendants’ and the consequences to the Plaintiff
have been unequivocally and irrefutably identified, ll) Plaintiff has discharged his
burden of validating the required elements of his complaint. The only jury issue is
the amount of monetary compensatory and punitive damages. Any other jury issues
are moot, Conclusive Adjudicative Facts Plaintiff requests the Court take Judicial
Notice that Defendant’s admit that Defendants were acting under color of law; and,
that The City of Kissimmee denies that its law enforcement officers used reasonable
force during the Plaintiffs arrest - excessive force is admitted.” The preceding
verbatim quotation is concluded!
Respondent Defendants filed no Memoranda in Opposition to any of Wrights
four Motion[s] for Judicial Notice. Wright has provided the District Court case
docket for this proceeding in Appendix A pgs. A44 - A74. Pursuant to Federal Rules
of Evidence Rule 201 [(c)(2) and (e)], Judicial Notice of Adjudicative Facts;“(c) Taking
Notice. The court: (2) must take judicial notice if a party requests it and the court is
supplied with the necessary information, (e) Opportunity to be heard. On timely
request, a party is entitled to be heard on the propriety of taking judicial notice and
the nature of the fact to be noticed. If the court takes judicial notice before notifying
a party, the party, on request, is still entitled to be heard.”
Rule 9. Pleading Special Matters
On August 6, 2018 Wright filed Document 171 titled PLEADING SPECIAL
23

MATTERS pursuant to Fed. R. Civ. P. Rule 9(b) Fraud or Mistake. Commencing pg.
6 thru pg. 14 of 22 Document 171, a verbatim quotation .
SUMMARIZATION OF THE CIRCIIMSTSNCES OF PARTICULARITY
CONSTITUTING FRAUD
“Kissimmee Police Department employee, undercover perjurer, detective Felix
Echevarria concocted numerous material facts which are/were deliberate and
reckless departures from reality- in an effort to cover up, justify, and rationalize his
associates unlawful and unconstitutional conduct -which resulted in Defendant
Wright’s broken nose.” Plaintiff filed Document 129 DEFINITE STATEMENT ,
pursuant to the request of defendants Mario Cardenas, Ian Downing, Brandon
Layne, Michael B. Strickland and Bradley A. Wheeler; on pg. 2 of 6 second
paragraph, is “Plaintiff attaches his medical records and STATES: the HPI-Motor
Vehicle Crash attached hereto is what this case is all about; a KPD police officer
crashed his vehicle into bicyclist Plaintiff; defendant police officers have tried to
cover it up. Document 129 also had ATTACHMENTS of June 11, 2017
correspondence David McClain/with medical records, Florida Bar Complaint,
Correspondence to F.B.I., Motion to Recuse- Defendant Judge A. James Craner.
Plaintiff also filed Document 130, an amendment to DEFINITE STATEMENT,
pursuant to the request of defendants Mario Cardenas, Ian Downing, Brandon
Layne, Michael B. Strickland and Bradley A. Wheeler; in which also was included
relevant data/information concerning the circumstances of particularity constituting
fraud. SEE ATTACHMENTS : CIVIL DOCKET FOR CASE #: 6:i4cv01653-GKS-

24

GJK, United States Constitutional Violations; 4 pgs. Factual Memorandum and
State Discovery exhibit; 10 pgs. Letters to Mr. Ashton; 7 pgs. Letters to General
Counsel; 4 pgs. Letter Mr. McClain; 1 pg. Letter Mr. Forsythe; 1 pg. The judgment
and conviction of Plaintiff in case No.:2014-CF-003651 is a fraud because counts 1
and 2 of the charging document, an information, fail to allege an essential element
as explained by the Florida Supreme Court in POLITE v. STATE 973 So.2d 1107
(2007)(PLAINTIFF PROVIDES COPY OF THE FLORIDA SUPREME COURT’S
DECISION IN POLITE ON PAGES 15-18); and ALSO, is based upon the perjured
probable cause arrest affidavit of perjurer Felix Echevarria. Defendant Echevarria
states in his perjured probable cause affidavit that suspected drug paraphernalia
was found on search of plaintiff “incident to a lawful arrest. Plaintiff states “there
was no lawful arrest of Plaintiff at approximately 22-14 on October 4, 2014.” The
seizure of Plaintiff and Plaintiff’s bicycle at the location of the Salvation Army retail
Family Store right next door to a Staples at 101 West Vine Street, Kissimmee, FI.
was a violation of the Fourth Amendment of the United States Constitution.
Furthermore, Defendant Echevarria asserts in his perjured probable cause affidavit
that he was not present for the seizure of Plaintiff and that Plaintiff was in
handcuff’s when Defendant Echevarria arrived on scene where Plaintiff was seized.
Plaintiff states that the only interaction of Plaintiff and Defendant Echevarria was
the transportation of handcuffed Plaintiff from the hospital to the jail. Defendant
Echevarria never searched Plaintiff “incident to a lawful arrest.” OR OTHERWISE;

Plaintiff-was never-searched by defendant echevarria)
25

Plaintiff was seized by defendants Layne, Wheeler and Cardenas and handcuffed
and searched by defendants Layne and Wheeler. Data and information concerning
the unconstitutional seizure of Plaintiff and Plaintiffs bicycle is provided by the
sworn affidavits of Brandon Layne and Bradley A. Wheeler. See Plaintiffs Second
Amended Complaint paragraph 6, pg. 8of2l and paragraph 8, jpg. llof21. Defendant
Wheeler’s affidavit asserts “Once Wright was placed in handcuffs, I aided in lifting
Viim to his feet and brushing him off. I then stayed with wright until he was seen by
the Kissimmee Fire Department. Wright was then transported from the scene to the
hospital.” Plaintiff attaches 3 pg. Kissimmee Fire Department documentation
(pgs. 19-21) concerning the transportation of Plaintiff to the hospital. The
documentation asserts “KPD rider due to pt. being under arrest.” The
documentation asserts the KPD rider was M. Cardenas. Plaintiff asserts the KPD
rider was Defendant Mario Cardenas. ADDITIONAL PERJURED AND
FRAUDULENT STATEMENTS OF DEFENDANT FELIX ECHEVARRIA: Perjurer
defendant Felix Echevarria asserts in the perjured probable cause affidavit that
after chasing Plaintiff (it is noted that Echevarria first claims to be in an unmarked
KPD vehicle and because Plaintiff was riding bicycle very fast, Echevarria
abandoned his vehicle and commenced a foot pursuit) on foot, Echevarria was able
to confront Plaintiff, identify himself as a police officer, and that plaintiff then
abandoned his bicycle and approached undercover officer Echevarria, swung a fist
at Echevarria who avoided the punch and grabbed Wright and took Wright down.
Ecvhevarria further asserts Plaintiff disregarded his commands, ceased to struggle

26

with Echevarria, then got back on his bicycle and rode away. Plaintiff certifies
that Defendant Echevarria’s false statements and false assertionls] are complete
fabrications, totally devoid of any basis in reality; Plaintiff did not abandon his
bicycle and participate in a violent confrontation; (alleged fist swinging), and then
get back on his bicycle and ride away from alleged altercation. On page 15oP21 of
Plaintiffs Second Amended Complaint paragraph #16- Kissimmee Police Officer
Luisbel Fundora, ID 655, filed a sworn SUPPLEMENTAL NARRATIVE about three
hours after 22:14 10/04/14. Officer Fundora is not a defendant in this cause. Officer
Fundora states that officer Fundora was an eye-witness to the persons of (Plaintiff)
Wright and (Defendant) Echevarria at 22:12 10/04/14. Officer Fundora states “ On
10/04/2014 at 22:12 hours, I, Officer L. Fundora, ID 655 was patrolling the area of
the Staples located at 101 West Vine Street. I heard Detective Echevarria ID 565
call out a foot pursuit in the area of Main Street and Cypress Street. As soon as I
heard Detective Echevarria call out the foot pursuit, I could see Detective
Echevarria running west on Cypress Street after a white male, Michael Wright.
Wright was running and pushing his bicycle at the same time. Wright then crossed
Main Street...” PERJURED AND FRAUDULENT STATEMENTS OF
DEFENDANTS FELIX ECHEVARRIA AND IAN DOWNING. All data and
information contained in the documents filed by Defendant Ian Downing is perjured
and fraudulent because the documents purport to demonstrate that Plaintiff Wright
was riding his bicycle, Plaintiff crashed his bicycle into a marked KPD vehicle
operated by Defendant Michael B. Strickland causing property damage greater than

27

$50.00 and then fled the scene of the alleged accident without exchanging
information. Defendant Downing states that Defendant Downing was not witness to
any of the alleged events in the fraudulent documents. Defendant Downing’s
Perjured documents are based entirely on false HEARSAY allegedly alleged by
perjurer Defendant Echevarria and bar defendant Michael B. Strickland who did
not submit any sworn affidavit. The perjured documents actually state that Plaintiff
rode his bicycle directly into the front end of Defendant Strickland’s vehicle and
(that Plaintiff did not fall off the bike) that Plaintiff continued riding bicycle away
from the location of the alleged criminal violation. The perjured documents filed by
perjurer Defendants Downing and Echevarria are not precisely clear or consistent
on the matter of whether or not the vehicle allegedly operated by Defendant
Michael B. Strickland was moving or parked. The true and correct information filed
by Defendant Downing should lawfully have been a Florida Traffic Crash Report
Long Form indicating the responsible driver of the automobile as Mario Cardenas
and the bicyclist victim as Michael J. Wright. The only automobile/bicycle crash
Plaintiff was involved in at approximately 22; 14 October 4, 2014 was when the
unmarked KPD automobile operated by Mario Cardenas crashed into bicyclist
Plaintiff. Although defendant Downing asserts that Downing arrested Plaintiff,
Defendant Downing never spoke to or with Plaintiff. The perjured documents filed
by Defendant Echevarria also assert that Plaintiff did ride his bicycle (crashed his
bicycle) into the front end of Defendant Michael B. Strickland’s patrol vehicle, “and
(that Plaintiff did not fall off the bike) that Plaintiff continued riding bicycle away

28

from the location of the alleged criminal violation. Defendant Echevarria wrote
the narrative “sequentially arranged” to describe Plaintiffs actions immediately
following Echevarria’s false statements asserting Plaintiff and Echevarria had
engaged in “hand to hand” fighting. HOWEVER. UNKNOWN TO PERJURERS
DOWNING AND ECHEVARRIA was the fact that Liusbel Fundora was an
eyewitness to the persons of Michael Wright and Felix Echevarria. Kissimmee
Police Officer Liusbel Fundora, ID 655, filed a sworn SUPPLEMENTAL
NARRATIVE about three hours after 22:14 0f 10/04/14. Officer Fundora is not a
defendant in this cause. Officer Fundora states that officer Fundora was an eye­
witness to the persons of (Plaintiff) Wright and (Defendant) Echevarria at 22:12
10/04/14. On pg. 16of21 of the Second Amended Complaint is paragraph 17; “#17The sworn eyewitness report of Officer Fundora exculpates & contradicts the
reports of Defendants Downing and Echevarria.” The Report of Liusbel Fundora
fully, completely and undeniably exonerates and exculpates Plaintiff of the false
narratives of Defendant’s Downing and Echevarria. CONCLUSIONS Plaintiff has
asserted in his SECOND AMENDED COMPLAINT FOR VIOLATION OF CIVIL
RIGHTS that Defendants have violated Plaintiffs 6th Amendment Rights (as well as
Plaintiffs 4th,5th,8th and 14th Amendment Rights). The 6th Amendment states: “In all
criminal prosecutions, the accused shall enjoy the right to a speedy and public trial,
by an impartial jury of the State and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the

29

witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.” The perjured and
fraudulent probable cause affidavit filed by peijurer Defendant Felix Echevarria
was the basis for filing a false and fraudulent citation in ticket #A0G2VEP in the
County Court in Case No. 2014 TR059134, and false, fraudulent and malicious
criminal charges in Case No. 2014CF003651. The judgment and conviction of
Plaintiff in Case No. 2014CF003651 is fraudulent because the defective information
that was the basis of the conviction failed to inform Plaintiff of the nature and cause
of the accusation (the essential elements). Plaintiff has filed copy of the actual
defective information in the record of this cause, and, Plaintiff, as stated on pages 7
and 8 of this document, files copy of the Florida Supreme Court Decision in POLITE
v. STATE 973 So.2d 1107(2007). Plaintiff is actually innocent of all identified false
and malicious assertions of the perjurer defendants who have caused and are
responsible for the IRREPARABLE HARM done to Plaintiff. The bicycle of Plaintiff
had lights, Plaintiff did not crash his bicycle (causing damage > than $50.00) into
the KPD patrol car operated by Defendant Michael B. Strickland, no altercation
between Plaintiff and Defendant Felix Echevarria occurred and Plaintiff did not
possess any drug paraphernalia. Verbatim quotation of document 171 is concluded.
Appendix C contains Related Case documents of cases 2014 CT 003885,
2014 TR059134 and 492014-CF-003651. The materiality of the documents is
presented via sworn factual statement description of the material.
On September 8, 2014, 26 days prior to the excessive force inflicted on Wright
as Wright was on the ground as a result of the impact of Defendant Cardenas
30

automobile colliding into bicyclist Wright, the 11th Circuit decided Saunders v.
Duke, 766 F.3d 1262, 1266 (11th Cir. 2014); The United States District Court
Middle District of Florida (Orlando) was the trial court; counsel for appellees
included Pamela Bondi and Ian D. Forsythe. Pamela Bondi is former Attorney
General in the state of Florida and was Respondent in case #: 6^14 - cv - 01653 GKS - GJK AppendixB', Ian D. Forsythe is Counsel of Record for respondents in the
District Court and Appellate Court.

FACTS of Saunders v. Duke, 766 F.3d 1262,1266 (11th Cir. 2014)
“We accept the factual allegations in the complaint as true and view them in the
light most favorable to Mr. Saunders. See Butler v. Sheriff of Palm Beach Cnty.,
685 F.3d 1261, 1265 (l 1th Cir.2012). We also construe the complaint liberally
because it was filed pro se. See Boxer X v. Harris, 437 F.3d 1107, 1110 (l 1th
Cir.2006). We have repeatedly ruled that a police officer violates the Fourth
Amendment, and is denied qualified immunity, if he or she uses gratuitous and
excessive force against a suspect who is under control, not resisting, and obeying
commands. See, e.g., Priester v. City ofRiviera Beach, Florida, 208 F. 3d 919,
927(11th Cir. 2000); Slicker v. Jackson, 215 F. 3d 1225, 1233 (llth Cir.2000); Lee v.
Ferraro, 284 F. 3d 1188, 1198 (llth Cir.2002). “[A] handcuffed, non-resisting
[suspect's] right to be free from excessive force was clearly established [by] February
2002,” Hadley,b2§ F. 3d. at 1333, or about six years before the alleged incident in
this case occurred. Pgs.1270, 71“It is true that documents attached to a complaint or
incorporated in the complaint by reference can generally be considered by a federal
court in ruling on a motion to dismiss under Rule 12(b)(6). See Tellabs, Inc. v.
Makor Issues & Rights, Ltd.,551U.S. 308, 322,127 S.Ct.2499, 168 L.Ed.2d
179(2007). Here, however, Mr. Saunders expressly alleged in his complaint that the
police reports that were submitted failed to properly and correctly document the
excessive force inflicted on him and the injuries he suffered. Where a civil rights
31

plaintiff attaches a police report to his complaint and alleges that it is false, as Mr.
Saunders did, the contents of the report cannot be considered as true for purposes of
ruling on a motion to dismiss. Otherwise, officers sued under § 1983 could just
attach police reports referenced in a civil rights complaint to their motions to
Hi amiss and ask courts to consider the contents of those reports even if they
contradicted the allegations of the complaint. And that, as we have said, would be
imprnppr See Fuller v. SunTrust Banks, Inc., 744 F.3d 685, 695-96 (llth
Cir.2014)(“In general, we do not consider anything beyond the face of the complaint
and documents attached thereto when analyzing a motion to dismiss [under Rule
12(b)(6) ].
Judge Mendoza has violated relevant decisions of this Court as well as this
Courts rules of procedure and rules of evidence. Judge Mendoza has also made
reckless false statements in the record to which Wright shall specifically address.
District Court Judge Carlos Mendoza despises TRUTH. To Judge Mendoza, factual
Truth is to be disdained, disfavored and scorned. “Reasonable minds, with
knowledge of all the relevant circumstances disclosed by a reasonable inquiry,
would conclude that the judge’s honesty, integrity, impartiality, temperament, or
fitness to serve as a judge is impaired. Federal Rules of Evidence Rule 102. Purpose
states: "These rules should be construed so as to administer every proceeding fairly,
eliminate unjustifiable expense and delay, and promote the development of evidence
law, to the end of ascertaining the truth and securing a just determination.” Judge
Mendoza rejects ascertaining the truth and securing a just determination. Appendix
A contains 4 Orders of Judge Mendoza; Doc. 255 pgs. A9-A17, Doc. 236 pgs. A18*
A26, Doc. 231 A27, A28 and Doc. 168. On following pg. 33 of this petition is pg. A16
of Document255; Wright will specifically address Judge Mendoza’s lies pg. 34.

32

*,ase 6:17-cv-00436-CEM-DCI

Document 255
1750

Filed 11/04/2019

Page 8 of 9 PagelD

see also Scott v. Harris, 550 U.S. 372, 383 (2007) (noting that in order to determine whether
excessive force was used “we must... slosh our way through the factbound morass of
*reasonableness"')?Nevertheless, the Eleventh Circuit distilled three guiding factors from Graham
to assist in balancing the analysis: “(i) the severity of the crime at issue, (it) whether the suspect
poses an immediate threat to the safety of the officers or others, and (iii) whether he is actively
resisting arrest or attempting to evade arrest by flight.” Steen v. City of Pensacola, 809 F. Supp.
2d 1342, 1349-50 (N.D. Fla. 2011) (citing Brown v. City of Huntsville, 608 F.3d 724, 738 (11th
Cir. 2010)).

Considering the evidence presented, all of the Steen factors heavily balance in favor of the
individual KPD officers in this case. 809 F. Supp. 2d at 1349-50. Plaintiff was actively fleeing
from a law enforcement officer. When Officer Echevarria caught up to Plaintiff, Plaintiff charged
at Echevarria with a closed fist. During Echevarria’s attempt to get Plaintiff under control, Plaintiff
struck Echevarria in the head. At this point, Plaintiff had committed serious crimes , was an
immediate threat to law enforcement officers, and was actively resisting arrest and attempting to
evade arrest by flight. After Plaintiff got away from Echevarria, Plaintiff continued his attempts to
evade all of the KPD officers now in pursuit. Officer Strickland attempted to head off Plaintiff by
blocking Plaintiffs path with his vehicle. Plaintiff again attempted to evade officers, at which time
he hit Strickland’s vehicle. When yet a third set of KPD officers, Officers Layne and Cardenas,
attempted to apprehend Plaintiff, he still continued to resist. It took three officers-Layne,
Cardenas, and Wheeler—to finally get control of Plaintiff and get him in handcuffs.
Considering these undisputed material facts and the factors set forth by the Eleventh
Circuit, this Court finds that all of the KPD officers’ actions in attempting to apprehend PlaintifT
were objectively reasonable. See Terrell, 668 F.3d at 1251. None of the KPD officers employed
excessive force considering the attendant circumstances, id., and Plaintiff has put forth no evidence

Page 8 of 9

Judge Mendoza states: “Considering the evidence presented, ”. The Respondents

33

presented no evidence. As Wright explained on previous pgs. 12-14 Judge Mendozas alleged
“evidence” are the documents contained in Respondent Defendant City of Kissimmee’s
Motion for Summary Judgment. On Behalf of the City of Kissimmee Defendants
(Doc.224); an affidavit executed by Shannon Proco on April 26, 2019 Appendix
A42.A43. TWpnHant’s Rule 2fi Initial Disclosures does not identify Ian Forsythe or
Shannon Proco as a witness who may have discoverable information to support
claims or defenses. Fed.R.Civ.P. Rule 56(c)(2) states- Objection Thnt n Feet Is Not
Supported by Admissible Evidence. A party may object that the material cited to
support or dispute a fact cannot be presented in a form that would be admissible in
evidence. Additionally, and just as material as Rule 56(c)(2), Federal Rules of
Evidence Rule 802 The Rule Against Hearsay “Hearsay is not admissible unless any
of the following provides otherwise:” a federal statute; these rules; or other rules
prescribed by the Supreme Court. Rule 801. Definitions That Apply to This Article;
Exclusions from Hearsay The following definitions apply under this article:
(a) Statement. “Statement” means a person’s oral assertion, written assertion, or
nonverbal conduct, if the person intended it as an assertion.
(b) Declarant. ‘Declarant” means the person who made the statement.
(c) Hearsay. “Hearsay” means a statement that:
(1) the declarant does not make while testifying at the current trial or hearing; and
(2) a party offers in evidence to prove the truth of the matter asserted in the
statement.
F.R.E. Rules 101, 1101. State “Applicability of the Rules (a) To Courts and Judges.”
Judge Mendoza states: “Plaintiff was actively fleeing from a law enforcement officer”. Lie. Huge
Lie. Wright was riding his bicycle and had no knowledge that he was being stalked, surveilled
or pursued by ANYBODY. “When Officer Echevarria caught up to Plaintiff”. Another Huge
Lie. As stated on pg. 21 of this petition “Defendant Felix Echevarria’s pre-textual
probable cause for allegedly attempting to seize bicyclist Plaintiff...” The last 2
printed lines of pg. 25 of this petition declare “Plaintiff states that the only
interaction of Plaintiff and Defendant Echevarria was the transportation of
34

handcuffed Plaintiff from the hospital to the jail." Next statement of Judge
Mendoza “Plaintiff charged at Echevarria with a closed fist” The 3rd lie of Judge
Mendoza (in cited paragraph). Third line page 29 this petition “Defendant
Echevarria wrote the narrative “sequentially arranged” to describe Plaintiffs
actions immediately following Echevarria’s false statements asserting Plaintiff and
Echevarria had engaged in “hand to hand” fighting.” The 4th lie, FALSE
STATEMENT of Judge Mendoza “During Echevarria’s attempt to get Plaintiff
under control, Plaintiff struck Echevarria in the head.” As already just declared,
Respondents evidence/affidavit pg. 25 “Plaintiff states that the only interaction of
Plaintiff and Defendant Echevarria was the transportation of handcuffed Plaintiff
from the hospital to the jail.” FIFTH LIE OF Judge Mendoza “At this point,
Plaintiff had committed serious crimes,. In TRUTH Defendant Echevarria is the
person who has committed serious crimes, VERY VERY serious crimes. Pages 20-22
of this petition are excerpted portions of affidavit Plaintiffs Third Motion for
Judicial Notice. As already stated last two lines pg.17 first three lines pg. 18
“Wright filed 4 distinct Motions for Judicial Notice commencing April24, 2019
document 223; Mayl, 2019 document 226; Julyl7, 2019 document 235; September
24, 2019 document 246. All 4 Motions for Judicial Notice were sworn to. Defendants
did not Hie Memoranda in Opposition to any of the 4 afSdavits. United States
District Court trial judge Carlos E. Mendoza did not rule on any of the 4 motions.
“All Defendant’s have violated Florida statute 918.13 Tampering with or
fabricating physical evidence.” Pursuant to Graham v. Connor; 490 U.S. 386, (1989)
an objective reasonableness standard is appropriate analysis. Here, the defendants
have tampered with AND fabricated physical evidence. Appendix C contains Florida
Statutes and Rules and a statement of the materiality of the contents of Appendix C
Page limitations prevent Wrights discourse of Jude Mendozas many lies in £?oc.236
On pgs. v, vi Related Cases, Wright stated “APPENDICES B and C CONTAIN
35

(documents) MATERIAL THE PETITIONER BELIEVES ESSENTIAL TO
UNDERSTAND THE PETITION. PETITIONER PROVIDES A PRELIMINARY
FACTUAL STATEMENT WITH APPENDICES, A DESCRIPTION OF THE
iyrATF.PTAT.TTY OF THE NUMEROUS DOCUMENTS.” In adhering to the page
limits of Rule 33.2 (b) [40 pages], Wright is unable to provide additional factual
statements] to completely demonstrate the evil motive of the defendant law
enforcement officers. In Smith v. Wade 461 U.S. 30(1983) "Redress commensurate
to such [personal] injuries should be afforded. In ascertaining its extent, the jury
may consider all the facts which relate to the wrongful act of the defendant, and its
consequences to the plaintiff but they are not at liberty to go farther, unless it was
done willfully, or was the result of that reckless indifference to the rights of others
which is equivalent to an intentional violation of them.” Appendices B and C are
essential for demonstrating the evil motive of the co-conspirator judicial process
persons! as Wright states on pages 37*38 of this petition “EVER SINCE May 8,
2015 when Wright presented Motion to Dismiss on Fundamental Grounds
[Appendix C pgs. C22 - C25] prior to the commencement of the sham bench trial,
every judicial process personts] related to this event has aggravated the evil
motive[s] of the defendant law enforcement officers”... . That is the reason (Logic)
for such an extensive list of names on the statement of interested persons pages
CIP1, CIP2.
REASONS FOR GRANTING THE WRIT
This proceeding, United States District Court case 6:17 -cv-00436 -CEM-DCI
has ascertained the TRUTH of October 4, 2014 (and subsequent facts_which relate
to the wrongful acts of the defendants, and its consequences to the plaintiff) as
herein presented with this petition.
The rules of this Court. Fed. R. Civ. P. Rule 12. Defenses and Objections:
When and How Presented; Rule 12(b) How to Present Defenses. Every defense to a
36

claim for relief in any pleading must be asserted in the responsive pleading if one is
required. But a party may assert the following defenses by motion- (l) lack of
subject-matter jurisdiction; (2) lack of personal jurisdiction; (3) improper venue; (4)
insufficient process; (5) insufficient service of process; (6) failure to state a claim
npnn wTlirh relief can be granted; and (7) failure to join a party under Rule 19.A
motion asserting any of these defenses must be made before pleading if a responsive
pleading is allowed. If a pleading sets out a claim for relief that does not require a
responsive pleading, an opposing party may assert at trial any defense to that
claim. No defense or objection is waived by joining it with one or more other
defenses or objections in a responsive pleading or in a motion.” Pursuant to Rule
12(h) “Waiving and Preserving Certain Defenses.(2) When to Raise Others. Failure
to state a claim upon which relief can be granted, to join a person required by Rule
19(b). or to state a legal defense to a claim may be raised:(A) in any pleading
allowed or ordered under Rule 7(a);(B) by a motion under Rule 12(c); or(C) at trial.”
Simply stated Defendant Respondents motion for summary judgment defense was
not timely filed and failed to comply with the Fed. R. Civ. P. and Respondents
Motions for Summary Judgment are violations of law.
EVER SINCE May 8, 2015 when Wright presented Motion to Dismiss on
Fundamental Grounds [Appendix Q, pgs. C22 - C25] prior to the commencement of
the sham bench trial, every judicial process personls] related to this complaint has
aggravated the evil motivelsl of the defendant law enforcement officers [excepting
Assistant State Attorney Krissia E. Mendez, Fla Bar #112642 who nolle prosequi
Wright in case no.; 49*2014-003885] who disfigured Wrights face and broke Wrights
37

nose while Wright was face down on the ground with his hands handcuffed behind
his back. It is the Constitutional Duty and Job of this Court to remedy this uniquely
extraordinary cause of exceptional circumstances.
THE Eleventh Circuit Court ofAppeals, Circuit Court Judge Carlos Mendoza,
Defendant City ofKissimmee, almost all Judicial Process Persons identified in this
Petition, corrupt habitualperjurer, former law enforcement employee defendant
Felix Echevarria and his defendant associates DISPUTE the JUDICIAL POWER of
this COURT and The Courts intent. IF THIS WAS NOT TRUE, THIS PETITION
WOULD NOT BE BEFORE THIS COURT. The defendants and The Judges of the
inferior courts BELIEVE[D] that Wright would and could not, present an adequate
petition to THIS COURT AND, that THIS COURT would even entertain pro se
non lawyer Wrights petition. The merits of this petition are indisputable and
irrefutable. The record is the evidence to the end of ascertaining the truth of that
reckless indifference to the rights of others which is equivalent to an intentional
violation of them, this tort is aggravated by the evil motive, [of all aforementioned
persons] in addition to the evil motive of the defendant law enforcement officers.
The United States Constitution Article HI Section I “The judicial Power of
the United States, shall be vested in one supreme Court,”...
The United States Constitution Article VI Clause 2 “shall be the supreme
Law of the Land; and the Judges in every State shall be bound thereby,
The United States Constitution Amendment 7 “the right of trial by jury shall
be preserved”
The United States Constitution Amendment 14 Section 1 “All persons...
equal protection of the laws.” The entire verbatim quotations recited atpgs. 2 and 3
Constitutional Provisions

Rule 10. Considerations Governing Review on Certiorari “Review on a writ of

38

certiorari is not a matter of right, but of judicial discretion. A petition for a writ of
certiorari will be granted only for compelling reasons.” The compelling reason(s) to
call for an exercise of this Court’s supervisory power are that a United States court
of appeals has entered a decision in conflict with the rules and decisions of this
Court. A United States court of appeals has decided an important federal question
maw ay that conflicts with the rules and relevant decisions of this Court, and has so
far departed from the accepted and usual course of judicial proceedings, as to call for an
exercise of this Court’s supervisory power;
Rule 20. Procedure on a Petition for an Extraordinary Writ Issuance by the
Court of an extraordinary writ authorized by 28 U. S. C. § 1651(a) is not a matter of
right, but of discretion sparingly exercised. To justify the granting of any such wnt,
the petition must show that the writ will be in aid of the Court’s appellate
jurisdiction, that exceptional circumstances warrant the exercise of the Court’s
discretionary powers, and that adequate relief cannot be obtained in any other form
or from any other court.” Petitioner Wright has amply demonstrated the requisite
showing
This Courts Decision in Village ofWillowbrook v. Olecb, 528 U.S. 562 (2000)
regarding the equal protection Clause of the 14th Amendment is directly at issue as
is The Courts rulemaking authority under U.S.C., 28, §723 b and §723 c (1934). And
The Courts decisions in McQuiggin v. Perkins 133 S. Ct. 1924(May 28, 2013),
Smith v. Wade, 461 U.S. 30(1983), Graham v. Connor, 490 U.S. 386, 396(1989),
Strickland v. Washington,466 U.S.668(1984), Almendarez-Torres v. United States,
523 U.S. 224(1998), United States v. Resendiz-Ponce, 549 US 102(2007) and Heckv.
Humphrey, 512 U.S. 477(1994) are also at issue.
The Code of Conduct for United States Judges Canon 2A (A)Respect for Law
has been egregiously violated by District Court Judge Mendoza. Wrights Petition has
unequivocally clearly established Judge Mendozas lack of respect for law including decision
[s] of this court, Fed. R. Civ. P., Federal Rules of Evidence and 28 U.S.C. § 1343(a) (3)
39

(3) To redress the deprivation, under color of any State law, statute, ordinance,
regulation, custom or usage, of any right, privilege or immunity secured by the
Constitution of the United States or by any Act of Congress providing for equal
rights of citiy.pns or of all persons within the jurisdiction of the United States, AND
Judge Mendoza has egregiously violated his OATH of office, 28 U.S. Code § 453,
verbatim recitation pg. x. SIMPLY PUT: Appendix A pgs. A114-A116 is defendants
defense and defendants motions for summary judgment are unlawful; however,
defendants motions did provide the method by which District Court Judge Mendoza
revealed his enthusiasm to betray his oath of office and the Constitution. Judge
Mendoza’s lack of respect for Law is indisputable. EXACTLY like the defendants,
Judge Mendoza actually believes the Supreme Courts civil Rules of procedure do not
apply in “his” courtroom nor do the Federal Rules of Evidence. BECAUSE, as
Wright already stated on pg.32 “Judge Mendoza despises TRUTH”; exactly like the
defendants (particularly Felix Echevarria) AND NUMEROUS JUDICIAL
PROCESS PERSONS
CONCLUSION
Wrights petition presents uniquely extraordinary exceptional circumstances that
the writ will be in aid of the Court s appellate jurisdiction, the extraordinary facts of
the proceeding warrant the exercise of the Court’s discretionary powers, and that
adequate relief cannot be obtained in any other form or from any other court, This
petition is timely filed in good faith.
The petition for a writ of certiorari should be granted.
Respectfully submitted,

(K.LVV<y~JU
Date:
40

CERTIFICATE OF COMPLIANCE WITH SUPREME COURT RULE 33
This petition complies with the typeface and type style requirements of Supreme
Court Rule 33.2(a) because it is permitted by the rules, is double spaced, except for
indented quotations which are single spaced on opaque, unglazed white paper. The
document is bound at the upper left-hand corner. Required copies are produced on
the same type of paper and are legible in century 12 point. This petition complies
with the type-volume limitations of Supreme Court Rule 33.2(b) because it contains
less than 40 pages, excluding the questions presented, the list of parties and the
corporate disclosure statement, the table of contents, the table of cited authorities,
the listing of counsel at the end of the document, or any appendix. The exclusions
specified in subparagraph 1 (d) of this Rule apply.

CERTIFICATE OF SERVICE
I, Michael J. Wright, do hereby certify that on January 28, 20211 have mailed an
original and 10 copies of the enclosed document via United States Postal Service
delivery by mailing to Clerk of the Court, United States Supreme Court, 1 First
Street, N.E., Washington D.C. 20543. Pursuant to Rule 29.3,1 certify I have also
mailed via first class United States Postal Service 1 copy of the foregoing document
to Counsel for all Defendants Ian D. Forsythe, 105 East Robinson Street, Suite 201,
Orlando, FI. 32801; (407)425-4251 iforsvthe@hiIvardlawfirm.com.
Pursuant to all Relevant Federal Statutes, Federal Riiles, and State Statutes,
Plaintiff, under penalty of perjury, states this Document is true and correct
regarding all material information, statements, assertions, allegations, and nr facts.

MiAa^Wri^hTT^
pro se/Counsel of Record
Petitioner / Plaintiff
13419 Summerton Dr.
Orlando, FI. 32824
(347)931-4928
wrimichaell958@gmad.com

41

